No. __-____

In the Supreme Court of the United States
ROGER HAWES,
v.

Petitioner,

WILLIAM STEPHENS, BRAD LIVINGSTON, AND
PAMELA PACE,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

APPENDIX
CARSON J. TUCKER, JD, MSEL, Counsel of Record
LEX FORI, PLLC
117 N. First St., Suite 111
Ann Arbor, MI 48104
(734) 887-9261
cjtucker@lexfori.org

Case: 19-40341

Document: 00515482738

Page: 1

Date Filed: 07/09/2020

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

July 09, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 19-40341

Roger Hawes v. William Stephens, et al
USDC No. 6:16-CV-442
USDC No. 6:16-CV-1313

--------------------------------------------------Enclosed is a copy of the court's decision. The court has entered
judgment under FED. R. APP. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
FED. R. APP. P. 39 through 41, and 5TH Cir. R.s 35, 39, and 41
govern costs, rehearings, and mandates. 5TH Cir. R.s 35 and 40
require you to attach to your petition for panel rehearing or
rehearing en banc an unmarked copy of the court's opinion or order.
Please read carefully the Internal Operating Procedures (IOP's)
following FED. R. APP. P. 40 and 5TH CIR. R. 35 for a discussion of
when a rehearing may be appropriate, the legal standards applied
and sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5TH CIR. R. 41 provides that a motion for
a stay of mandate under FED. R. APP. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under FED. R. APP. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order. If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

1a

Case: 19-40341

Document: 00515482738

Page: 2

Date Filed: 07/09/2020

Sincerely,
LYLE W. CAYCE, Clerk

By: _______________________
Whitney M. Jett, Deputy Clerk
Enclosure(s)
Mr. Adam Fellows
Mr. Roger Hawes
Mr. Christopher Lee Lindsey

2a

Case: 19-40341

Document: 00515482721

Page: 1

Date Filed: 07/09/2020

IN THE UNITED STATES COURT OF APPEALS
Court of Appeals
FOR THE FIFTH CIRCUIT United States
Fifth Circuit

FILED
July 9, 2020

No. 19-40341

Lyle W. Cayce
Clerk

ROGER HAWES,
Plaintiff - Appellant
v.
WILLIAM STEPHENS; BRAD LIVINGSTON; PAMELA PACE,
Defendants - Appellees
******************************************************************
ROGER HAWES,
Plaintiff - Appellant
v.
WILLIAM STEPHENS, Director, Texas Department of Criminal Justice,
Correctional Institutions Division; BRAD LIVINGSTON, Executive Director,
Texas Department of Criminal Justice, Correctional Institutions Division;
PAMELA PACE, Practice Manager, University of Texas Medical Branch;
Defendants - Appellees

Appeal from the United States District Court
for the Eastern District of Texas
Before SMITH, GRAVES, and HO, Circuit Judges.
JAMES E. GRAVES, Jr., Circuit Judge:

3a

Case: 19-40341

Document: 00515482721

Page: 2

Date Filed: 07/09/2020

Plaintiff-Appellant Roger Hawes, who is currently incarcerated in Texas,
contends that various employees of the Texas Department of Criminal Justice
violated federal law when they deducted a medical co-payment from his inmate
trust account. We disagree and affirm the district court’s grant of summary
judgment in favor of the defendants.
I. BACKGROUND
Title 38 U.S.C. § 5301(a) (“Section 5301(a)”) states that payments of
veteran’s benefits “shall be exempt from the claim of creditors, and shall not
be liable to attachment, levy, or seizure by or under any legal or equitable
process whatever.” 38 U.S.C. § 5301(a)(1). Veterans Affairs (“VA”) payments
protected under Section 5301(a) are covered by 31 C.F.R. § 212 (“Section 212”),
which was enacted in 2011 to “implement statutory provisions that protect
[f]ederal benefits from garnishment.” 31 C.F.R. §§ 212.1, 212.2(b)(2). Both
Section 5301(a) and Section 212 are at issue in this case.
As noted above, Plaintiff-Appellant Roger Hawes (“Mr. Hawes”), who is
proceeding pro se, is incarcerated in Texas. In December 2015, $100 was
deducted from his inmate trust as a copay for his medical care.1 Mr. Hawes,
who receives regular payments from the VA, believes this deduction violated
Section 5301(a) and Section 212.
After pursuing grievances regarding the deduction, Mr. Hawes filed the
instant suit. He named as defendants two directors of the Texas Department
of Criminal Justice (“TDCJ”) (together, the “TDCJ defendants”) and Pamela
Pace, a University of Texas Medical Branch practice manager (collectively,
“Defendant-Appellees”). Mr. Hawes alleged that the TDCJ defendants violated
Section 5301(a) by garnishing protected funds to satisfy his medical

An annual $100 medical copayment is collected from inmates pursuant to Texas law.
See Tex. Gov’t Code § 501.063.
1

4a

Case: 19-40341

Document: 00515482721

Page: 3

Date Filed: 07/09/2020

copayment, failed to implement institutional policies to identify prisoners who
received funds exempt from levy or garnishment, and engaged in a conspiracy
to convert funds belonging to him and thereby committed theft.2 He also
complained that Defendant Pace failed to fulfill her duty to properly and
thoroughly investigate his grievances and that the TDCJ grievance process
denied him due process. He sought injunctive and declaratory relief,
reimbursement of the $100 copayment, and compensatory damages.
The magistrate judge issued a report and recommendation granting
summary judgment in favor of Defendant-Appellees, which the district court
adopted. This appeal followed.
II. DISCUSSION
A. 42 U.S.C. § 1983 and Section 5301(a)
The magistrate judge found that Section 5301(a) may be enforced by
private suit pursuant to 42 U.S.C. § 1983. The defendants did not object to that
finding, presumably because the magistrate ultimately ruled in their favor on
the merits. There is therefore no need for us to reach the issue of whether Mr.
Hawes can sue under Section 1983. Review of an un-objected legal conclusion
from a magistrate is for plain error. See Duarte v. City of Lewisville, 858 F.3d
348, 352 (5th Cir. 2017). Affirmance on the merits is proper, as explained
below, so any error on this point could not have been plain. We therefore
assume arguendo that Section 5301(a) may be privately enforced through
Section 1983 and proceed.

Mr. Hawes argues that the theft of his property violated federal law because it
involved property transferred through the mail or through federal wire transfer of U.S.
Treasury funds.
2

5a

Case: 19-40341

Document: 00515482721

Page: 4

Date Filed: 07/09/2020

B. Section 5301(a) and the Medical Copayment
Mr. Hawes contends that the district court erred in concluding that the
TDCJ defendants did not violate Section 5301(a) when they used funds in his
inmate trust account, some of which were received as VA benefit payments, to
satisfy his medical copay. While we do not endorse the analysis of the
magistrate judge or district court, we find that they were correct in granting
summary judgment in favor of Defendant-Appellees on this point.
This court reviews a grant of summary judgment de novo, applying the
same standard as the district court. Austin v. Kroger Tex., L.P., 864 F.3d 326,
328 (5th Cir. 2017); Mississippi River Basin Alliance v. Westphal, 230 F.3d 170,
174 (5th Cir. 2000). Summary judgment is appropriate “if the movant shows
that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). “A genuine issue
of material fact exists when the evidence is such that a reasonable jury could
return a verdict for the non-moving party.” Austin, 864 F.3d at 328 (internal
quotation marks and citation omitted). All facts and reasonable inferences are
construed in favor of the nonmovant, and the court should not weigh evidence
or make credibility findings. Deville v. Marcantel, 567 F.3d 156, 163–64 (5th
Cir. 2009). The resolution of a genuine issue of material fact “is the exclusive
province of the trier of fact and may not be decided at the summary judgment
stage.” Ramirez v. Landry’s Seafood Inn & Oyster Bar, 280 F.3d 576, 578 n.3
(5th Cir. 2002).
Here, Mr. Hawes asserts that the TDCJ defendants violated Section
5301(a) and Section 2123 by deducting the $100 medical copayment from his

In addition to his other claims, Mr. Hawes asserts that the TDCJ defendants violated
his procedural due process rights by failing to comply with the procedures set out in Section
212. But the regulations, which set out procedures for financial institutions to follow with
regard to a garnishment order against an account holder into whose account a federal benefit
payment has been directly deposited, do not give rise to a private cause of action. Indeed,
3

6a

Case: 19-40341

Document: 00515482721

Page: 5

Date Filed: 07/09/2020

inmate trust account, which contained benefits paid to him by the VA. The trial
court determined that the TDCJ is not a financial institution for purposes of
Section 212, which is obvious given the definition provided in the regulations.4
But that court nonetheless deemed Section 212 a “framework for the
evaluation of the monies” in Mr. Hawes’s account that “assists in the
determination of what funds are protected” by Section 5301(a). It therefore
applied the direct-deposit5 and lookback provision6 of Section 212 to the facts
of this case and concluded that Section 5301(a) had not been violated.
Mr. Hawes argues that if the TDCJ does not qualify as a “financial
institution,” none of the provisions of Section 212 should apply. We agree. No
authority addresses what role Section 212 plays when the alleged
“garnishment” of federal benefits involves something other than a “financial
institution.” But the regulation itself is expressly limited to those institutions,
31 C.F.R. §212.2(a), and it was intended only to “establish[] procedures that
financial institutions must follow when they receive a garnishment order . . . ,”
76 Fed. Reg. 9,939 (Feb. 23, 2011). Moreover, enactment of Section 212 directly
preceded the implementation of garnishment exemption identifiers encoded by
the Treasury Department into automated clearinghouse (“ACH”) payments. 76

Section 212 explicitly provides that “[f]ederal banking agencies will enforce compliance with
this part.” 31 C.F.R. § 212.11(a).
4 A “financial institution” is defined as “a bank, savings association, credit union, or
other entity chartered under Federal or State law to engage in the business of banking.” 31
C.F.R. § 212.3. TDCJ possesses no such charter.
5 Section 212 provides that a “benefit payment” is “a “Federal benefit payment . . .
paid by direct deposit to an account,” and an “account” is “an account . . . at a financial
institution and to which an electronic payment may be directly routed.” 31 C.F.R. § 212.3.
6 Under Section 212, funds are protected during a two-month “lookback period” that
“begins on the date preceding the date of account review and ends on the corresponding date
of the month two months earlier.” 31 C.F.R. § 212.3. The “protected amount” in an account is
“the lesser of the sum of all benefit payments posted to an account between the close of
business on the beginning date of the lookback period and the open of business on the ending
date of the lookback period.” Id.

7a

Case: 19-40341

Document: 00515482721

Page: 6

Date Filed: 07/09/2020

Fed. Reg. 9,940 (Feb. 23, 2011). All evidence thus suggests that Section 212
was intended to apply only to those institutions expressly covered by its text.
Consequently, we must consider whether Section 5301(a) was violated
without reference to the procedures outlined in Section 212. Answering that
question requires understanding the status of the funds in Mr. Hawes’s inmate
trust account on December 11, 2015, the day the medical copayment was
deducted.
According to Mr. Hawes, his VA benefits were previously directly
deposited into an outside account at Altra Federal Credit Union until January
2014. Between January 2015 and December 2015, Mr. Hawes made several
$80 transfers from that account into his inmate trust account. But other than
a declaration, he offers no evidence that U.S. Treasury deposits were the only
source of funds for the Altra account. And while four $133.17 VA benefit
payments were directly deposited into Mr. Hawes’s inmate trust account prior
to the copayment deduction, that deduction was also preceded by two $300
deposits into the inmate account by a private citizen.
Because Mr. Hawes’s VA benefits were commingled with transfers from
his Altra account and with sizeable deposits by a private individual, it is
impossible to know whether the medical co-payment was charged against
funds that originated from the Department of the Treasury. Mr. Hawes
therefore cannot state a claim under Section 5301(a), which protects only
payments of federal benefits. With respect to Mr. Hawes’s claims arising from
the TDCJ defendants’ purported violations of Section 5301(a), we therefore
affirm the district court’s grant of summary judgment.7

Given this conclusion, it is unnecessary to analyze Mr. Hawes’s claims involving
conspiracy and theft or the defendants’ argument that they are entitled to qualified
immunity.
7

8a

Case: 19-40341

Document: 00515482721

Page: 7

Date Filed: 07/09/2020

C. Section 5301(a) and the Prison Litigation Reform Act
After Mr. Hawes filed his complaint, the magistrate judge granted him
leave to proceed in forma pauperis and assessed an initial partial filing fee of
$43 pursuant to the Prison Litigation Reform Act (“PLRA”). Mr. Hawes
objected, asserting that his VA benefits were his sole source of income and that
they were exempt from garnishment or levy under Section 5301(a). The
magistrate judge overruled both that objection, a subsequent objection, and a
request for reimbursement.
On appeal, Mr. Hawes continues his challenge to the assessment of the
initial partial filing fees, including the one associated with his appeal. He
maintains that there is no support for the trial court’s conclusion that funds
protected under Section 5301(a) may still be used for payment of judicial filing
fees. And according to Mr. Hawes, the plain language of Section 5301(a)
precludes consideration of his VA benefits to calculate the initial filing fee.
Under 28 U.S.C. § 1915(b)(1) and (2), a prisoner filing a civil action or
appeal in forma pauperis must pay the full filing fee over time through the
assessment of an initial partial filing fee and the monthly withdrawal of funds.
While Section 5301(a) does protect federal benefit payments from “attachment,
levy, or seizure,” nothing in the statute suggests (1) that recipients of benefits
are exempt from statutory filing fee requirements; or (2) that assets acquired
from VA benefits cannot be taken into account for purposes of determining
whether a litigant is eligible for in forma pauperis status. See 38 U.S.C.
§ 5301(a)(1). We therefore affirm the trial court’s assessment of filing fees.
D. Due Process and the Prison Grievance System
Mr. Hawes filed a Step One grievance following the seizure of his medical
copay, in which he stated that the money he receives as a disabled veteran is
exempt from collection by any creditor for any reason. Defendant Pace
responded that the charge was for a dental plan and was correct. Mr. Hawes

9a

Case: 19-40341

Document: 00515482721

Page: 8

Date Filed: 07/09/2020

then filed a Step Two grievance, in which he complained that the Step One
grievance response ignored the impact of Section 5301(a). The response to the
Step Two grievance affirmed the Step One response and indicated that the unit
medical department and the health services division do not handle inmate
money. Mr. Hawes now alleges that the prison grievance system did not afford
him adequate due process and that Defendant Pace failed to meet her duty to
adequately investigate grievances. Case law dictates that these claims be
dismissed.
The Fourteenth Amendment protects inmates from deprivation of their
property without due process of law. Parratt v. Taylor, 451 U.S. 527, 536–37
(1981), overruled on other grounds by Daniels v. Williams, 474 U.S. 327, 106
(1986). “We assume arguendo that inmates have a protected property interest
in the funds in their prison trust fund accounts, entitling them to due process
with respect to any deprivation of these funds.” Morris v. Livingston, 739 F.3d
740, 750 (5th Cir. 2014) (citations omitted). However, a state actor’s
unauthorized deprivation of an inmate’s prison account funds “does not
constitute a violation of the procedural requirements of the Due Process Clause
of the Fourteenth Amendment if a meaningful postdeprivation remedy for the
loss is available.” Hudson v. Palmer, 468 U.S. 517, 533 (1984).
We have long acknowledged that Texas provides inmates challenging the
appropriation of monies in their inmate trust fund account “with meaningful
postdeprivation remedies, either through statute or through the tort of
conversion.” Washington v. Collier, 747 F. App’x 221, 222 (5th Cir. 2018)
(unpublished) (per curiam) (citing Myers v. Klevenhagen, 97 F.3d 91, 95 (5th
Cir. 1996); Murphy v. Collins, 26 F.3d 541, 543–44 (5th Cir. 1994)). Because
Texas affords Mr. Hawes an adequate postdeprivation remedy for the
confiscation of the $100 in his inmate trust account, no actionable violation of
his rights occurred, and his § 1983 claim against the TDCJ defendants “lacks

10a

Case: 19-40341

Document: 00515482721

Page: 9

Date Filed: 07/09/2020

an arguable basis either in law or in fact.” See Neitzke v. Williams, 490 U.S.
319, 325 (1989). Mr. Hawes’s claim against Defendant Pace also fails, not least
because prisoners do not have a federally protected liberty interest in having
their grievances resolved to their satisfaction. See Geiger v. Jowers, 404 F.3d
371, 373–74 (5th Cir. 2005).
We therefore affirm the district court’s grant of summary judgment in
favor of the defendants on these claims.
III. CONCLUSION
The district court’s grant of summary judgment is AFFIRMED.

11a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 1 of 38 PageID #: 742

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION

ROGER HAWES, #712549

§

VS.

§

WILLIAM STEPHENS, ET AL.

§

CIVIL ACTION NO. 6:16cv442
(Consolidated with 6:16cv1313)

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Plaintiff Roger Hawes, a prisoner currently confined in the Michael Unit of the Texas
prison system, proceeding pro se and in forma pauperis, filed this civil rights lawsuit pursuant to
42 U.S.C. § 1983. Plaintiff is suing Brad Livingston, former Executive Director of the Texas
Department of Criminal Justice (TDCJ), William Stephens, former Director of the TDCJ
Correctional Institutions Division, and Pamela Pace, an University of Texas Medical Branch
(UTMB) Practice Manager, in their official and individual capacities. The cause of action was
referred for findings of fact, conclusions of law and recommendations for the disposition of the
lawsuit.
The present Report and Recommendation addresses Plaintiff’s Partial Motion for Summary
Judgment (Dkt. #48), Defendants’ Joint Response and Counter-Motion for Summary Judgment
(Dkt. #58), Plaintiff’s response (Dkt. #62), Defendants’ Joint Summary Judgment Reply (Dkt.
#65), Plaintiff’s Response to Defendants’ Joint Summary Judgment Reply (Dkt. #67), Plaintiff’s
Second Motion for Summary Judgment (Dkt. #74), Defendants Stephens and Livingston’s Second
Motion for Summary Judgment (Dkt. #78), Defendant Pace’s Second Motion for Summary

12a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 2 of 38 PageID #: 743

Judgment (Dkt. #79), Plaintiff’s Response to Defendants Stephens and Livingston’s Second
Motion for Summary Judgment (Dkt. #83), Plaintiff’s Response to Defendant Pace’s Second
Motion for Summary Judgment (Dkt. #84), Defendants Stephens and Livingstons’ Supplement to
their Second Motion for Summary Judgment (Dkt. #88), and Plaintiff’s Objections and Response
to Defendants Stephens and Livingston’s Supplement to Second Motion for Summary Judgment.
(Dkt. #90).
Plaintiff’s Factual Allegations
The original complaint was filed on May 18, 2016. (Dkt. #1). Plaintiff’s amended
complaint, the operative pleading in this case, was filed on November 21, 2016. (Dkt. #24).
Plaintiff claims that Defendants have deprived him of money that he received from Veterans’
Administration benefits, which are exempt from levy or garnishment under federal law. He
complains that Stephens and Livingston failed to implement institutional policies to identify
prisoners who received funds which were exempt from levy or garnishment, and that Pace failed
to properly and thoroughly investigate his grievances.
In December 2015, Hawes contends that he was deprived of $100.00 pursuant to Tex.
Gov’t Code § 501.104, which provides for a $100.00 medical co-pay. He asserts that his sole
source of income is from Veterans’ Administration (VA) benefits. As a result, Hawes states that
he suffered financial hardship and emotional distress, including being deprived of the ability to
purchase items necessary to supplement his diet, observe religious holy days, and maintain
personal hygiene.
Hawes contends that he filed grievances but the TDCJ grievance process is grossly
inadequate and fails to provide any meaningful resolution of prisoner grievances. No meaningful

13a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 3 of 38 PageID #: 744

investigation is conducted. The grievance process denies him due process because it “virtually
precludes access to any recourse due to financial hardships and burdens.”
Furthermore, Hawes maintains that the Defendants have engaged in a conspiracy to convert
funds belonging to him and have thereby committed theft. Livingston and Stephens have budgetary
responsibility for TDCJ and, as such, they derived a “personal benefit” from unlawfully
transferring Hawes’ money in that they received houses, salaries, and other benefits from the
agency based on their fiscal performance. Hawes argues that the theft of his property violated
federal law because it involved property transferred through the mail or through federal wire
transfer of U.S. Treasury funds.
Hawes argues that Defendant Pace has a duty to investigate grievances concerning medical
issues, but in December 2015, she disregarded this duty and “subjected plaintiff to a prolonged
process to recover his property for the medical co-payment she personally imposed upon him for
medical services rendered.” She disregarded 38 U.S.C. § 5301 and relied instead on Tex. Gov’t
Code. § 501.014, causing him to suffer financial hardship and emotional distress. He also states
that he has been unable to obtain medical care because he cannot afford to be subjected to any
additional medical fees or prolonged deprivation of his VA benefits.
Hawes states that Defendant Pace was previously sued in state court for wrongly
confiscating funds but does not indicate the outcome of this state lawsuit. He further states that
Pace’s administrative duties include authorizing the deductions of medical co-payments or the
return of wrongfully confiscated funds and that Pace failed to identify the source of funds in his
account before taking them.

14a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 4 of 38 PageID #: 745

Hawes requests that Livingston and Stephens or their agents be ordered to stop taking
money from Hawes’ account until it is established that he has another source of income, that TDCJ
be ordered to create a policy and plan to identify prisoners who receive VA benefits and exempt
those funds from levy or garnishment, and that third-party oversight of prisoner grievances by an
independent review committee be established. Hawes also seeks declaratory relief, restoration of
his $100.00, and compensatory damages of $2,000.00.
Hawes attaches a Step One grievance, Grievance no. 2016079722, to his amended
complaint. This grievance, dated December 18, 2015, complains of the taking of $100.00 from his
account and states that the money he receives as a disabled veteran is exempt from collection by
any creditor for any reason. Pace’s response states that the charge was for a dental plan and is
correct per Administrative Directive 06.08.
Hawes’ Step Two grievance appeal to Grievance no. 2016079722, complains that the Step
One grievance response ignored his exemption because he receives disability funds from the VA,
which cannot be garnished or levied. Hawes claims in the grievance that a similar case was heard
in state court in Travis County, Texas; the case was dismissed on a procedural ground, but the
Assistant Attorney General agreed that it was illegal to deduct the $100.00 co-pay from his account
because the money came from the VA. He asserts that the Assistant Attorney General told the
court that she would notify TDCJ and instruct them to develop a policy which would identify
inmates who receive money protected under 38 U.S.C. § 5301.
The grievance response states that review of the grievance, clinical records, and the bank
statement shows that the Step One response was correct. The response also states that the unit
medical department and the health services division do not handle inmate money.

15a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 5 of 38 PageID #: 746

Hawes also attaches a grievance from May of 2011 in which he complains that a $3.00 copay was deducted from his account. He does not mention the VA benefits but states that as a
chronic care patient, he is not supposed to be charged a co-pay fee. The response to this grievance
stated that Hawes’ records were corrected and he should have received a refund.
Hawes attaches a purported affidavit from Eric Johnston, Director for the Commissary and
Trust Fund for TDCJ-CID, dated March 5, 2014. This affidavit states that on September 28, 2011,
the Inmate Trust Fund Division had a programming change to comply with the law stating that
VA benefits, Social Security benefits, and SSI benefits are exempt from garnishment. The affidavit
then states as follows:
While this practice has not yet been captured in policy, the TDCJ policy in
Administrative Directive 06.08 outlines how the annual $100.00 fee will be
deducted from an inmate’s ITF [inmate trust fund] account if funds are available.
TDCJ will not deny an offender access to medical care if all of the offender’s funds
are protected benefits.
If an offender’s ITF account has been charged the annual $100.00 fee in error, an
offender may send an I-60 (standard document for offenders to correspond with
TDCJ staff) or file a grievance requesting that the $100.00 be re-deposited into his
ITF because the only funds he receives are protected benefits. Upon receipt of the
grievance or I-60 and confirmation that all funds in the offender’s ITF account are
protected benefits, the annual $100.00 fee will be reimbursed to the offender’s ITF
account. If there are other funds found in the offender’s ITF, funds that are not
protected benefits, those funds will be used to satisfy the $100.00 annual health
care service fee as per policy. See AD 06.08 (rev. 6).
Plaintiff’s Partial Motion for Summary Judgment
Hawes filed a motion for partial summary judgment (Dkt. #48) on November 17, 2017. He
argues that he is entitled to summary judgment because TDCJ assessed his account for a medical

16a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 6 of 38 PageID #: 747

access fee in the amount of $100 pursuant to Tex. Gov’t Code § 501.014 1 and has failed to return
the money despite following the administrative procedures set forth in TDCJ policy. He asserts
that the money in his ITF account is protected from garnishment and confiscation because the
money derives from disability benefits from the VA.
In support of his summary judgment motion, Hawes attached as Exhibit ACthe Affidavit
of Eric Johnston, TDCJ’s Director for Commissary and Trust Fund, dated March 5, 2014, from Ex
Parte Michael Wayne Thomas, Cause No. D1GN14000223, filed in the District Court of Travis
County, Texas; Exhibit BCa letter from Hawes to the Inmate Trust Fund Manager, dated March
29, 2012, complaining about a $100.00 medical access fee that was collected in December 2011;
Exhibit CCa copy of the commissary purchase history records for Hawes from November 1, 2015
to September 13, 2016, with a business records affidavit; Exhibit DCa copy of the Inmate Trust
Fund business records of Hawes from November 1, 2015 to September 14, 2016, with a business
records affidavit; Exhibit ECa copy of the TDCJ Offender Grievance Records for Hawes for
November 2015 to September 12, 2016, with a business records affidavit; Exhibit FCa copy of
an unsigned letter, dated August 23, 2016, addressed to “Whom it may concern,” with a stamped
name and address of Altra Federal Credit Union and a notary stamp at the bottom. The Court notes
that there is no signator, affiant or verification with the notary stamp; Exhibit G Ca Declaration
in support of Plaintiff’s motion for partial summary judgment, signed by Hawes under penalty of
perjury; and Exhibit HCa Step One grievance, Grievance No. 2017185020, submitted by Plaintiff
on August 5, 2017, regarding a $5.00 charge to his account for a new I.D. card, an unsubmitted

1

Section 501.014, Tex. Gov’t Code, pertains to inmate money and the TDCJ’s authority to establish inmate trust
fund accounts.

17a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 7 of 38 PageID #: 748

Step Two grievance, a copy of Hawes’ objections to Magistrate Judge’s Report and
Recommendation, dated September 18, 2017, several copies of the same I-60 to Mr. Eric Johnston
complaining that $5.00 was debited from his ITF for a replacement I.D. card.
In support of his second summary judgment motion (Dkt. #74), Plaintiff attached the same
exhibits as were attached to his original summary judgment motion, along with a copy of the
Court’s August 8, 2018 Order and its attachment. (Dkt. #74-1).
Defendants’ Joint Motion for Summary Judgment
Defendants Stephens, Livingston, and Pace filed a joint motion for summary judgment
(Dkt. #58) on January 29, 2018. They argue that they are entitled to summary judgment because:
(1) Hawes has failed to provide any evidence that he informed Defendants that his private bank
account deposits were, in fact, wholly comprised of VA benefits prior to the December 11, 2015
withdrawal, and (2) Hawes has failed to provide any competent evidence from his bank or from
the U.S. Treasury proving that his private bank account deposits were, in fact, wholly comprised
of VA benefits prior to the December 11, 2015 withdrawal. Defendants also assert that Hawes has
not overcome their entitlement to qualified immunity in their individual capacities. In support of
their motion, Defendants attached as Exhibit ACan affidavit by Dena Lerma, an Accountant II in
the TDCJ Commissary and Trust Fund Department, dated October 24, 2017; Exhibit BCan
affidavit by Dena Lerma, an Accountant II in the TDCJ Commissary and Trust Fund Department,
dated January 11, 2018; Exhibit CCthe TDCJ Inmate Trust Fund records pertaining to Offender
Roger Hawes from January 1, 2015 to November 7, 2016, with a business records affidavit; and
Exhibit DCthe TDCJ Offender Grievance file for Offender Roger Hawes from November 2015
to September 12, 2016, with business records affidavit.

18a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 8 of 38 PageID #: 749

Defendants Stephens and Livingston filed their Second Motion for Summary Judgment on
October 12, 2018. (Dkt. #78). Defendants Stephens and Livingston did not attach any exhibits to
their second summary judgment motion. Defendants incorporated by reference their arguments
and exhibits from their first summary judgment motion.
Defendant Pace filed her Second Motion for Summary Judgment on October 15, 2018.
(Dkt. #79). She attached as Exhibit A—an affidavit by Andy DeYoung, dated October 4, 2018, 2
and Exhibit B—the relevant portion of Offender Roger Hawes’s grievances from November 2015
to September 12, 2016, with a business records affidavit.
In response to the Court’s October 30, 2018 Order (Dkt. #85), Defendants Stephens and
Livingston filed a supplement to their Second Motion for Summary Judgment on November 14,
2018. (Dkt. #88). The supplement contains relevant documents from Hawes’ TDCJ Commissary
and Trust Fund file maintained by TDCJ, with a business records affidavit. (Dkt. #88-1).
Defendant Pace adopted Dkt. #88-1 as her response to the Court’s October 30, 2018 Order. (Dkt.
#89).
Plaintiff=s Responses
Hawes filed a response (Dkt. #62) to Defendants’ joint motion for summary judgment on
February 22, 2018. He submitted summary judgment evidence with his response: Exhibit A—a
copy of a Step One grievance, Grievance #2016079722; Exhibit B—a copy of a Step Two
grievance, Grievance #2016079722; Exhibit C—a copy of two Step One grievances and a Step
Two grievance that do not appear to have been submitted to TDCJ Grievance officials; Exhibit
DCa copy of an unsigned letter, dated August 23, 2016, addressed to “Whom it may concern,”

2

The Court notes that Defendant Paces’ Exhibit A suffers from certain deficiencies. See Fed. R. Civ. P. 56(c)(4).

19a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 9 of 38 PageID #: 750

with a stamped name and address of Altra Federal Credit Union and a notary stamp at the bottom
(this document was attached to Hawes’ motion for partial summary judgment). The Court again
notes that there is no signator, affiant or verification with the notary stamp; Exhibit ECother than
a cover sheet, no document was attached under Exhibit E; Exhibit FCthe first page only of the
Affidavit of Eric Johnston, TDCJ’s Director for Commissary and Trust Fund, dated March 5, 2014,
from Ex Parte Michael Wayne Thomas, Cause No. D1GN14000223, filed in the District Court of
Travis County, Texas, a copy of a completed Step One grievance, Grievance #2017185020, dated
August 5, 2017; and a copy of a completed Step 2 grievance, Grievance #2017185020, dated
September 18, 2017; and Exhibit GCa copy of a Report and Recommendation (Dkt. #30)
pertaining to the Defendants’ respective motions to dismiss, dated July 13, 2017.
Hawes also filed a response to Defendants Stephens and Livingston’s Second Motion for
Summary Judgment. (Dkt. #83). In his response, Hawes argues that TDCJ must be a financial
institution for the purposes of 31 C.F.R. § 212. He poses the question of whether an inmate trust
account authorized under Tex. Gov’t Code § 501.014 qualifies as a financial institution. Hawes
complains that TDCJ did not follow the procedures set out in § 212 to provide notice of a
garnishment. He asserts that the Court has jurisdiction to consider the non-compliance with § 212
in relation to 38 U.S.C. §5301. He does not provide any case law or statutory authority to support
his position that the Court has jurisdiction in this instance.
Hawes filed a response to Defendant Pace’s second motion for summary judgment. (Dkt.
#84). He argues that Defendant Pace was personally involved in the denial of his due process rights
in the collection of the medical co-payment fee from his ITF account. He also contends that
Defendant Pace is not entitled to qualified immunity in her individual capacity nor to the

20a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 10 of 38 PageID #: 751

protections under the Eleventh Amendment in her official capacity. The Court will address the
arguments below as appropriate.
Defendants’ Joint Summary Judgment Reply
In their Joint Summary Judgment Reply (Dkt. #65), Defendants direct the Court’s attention
to Purvis v. Crosby, 2006 WL 1836034 (N.D. Fla. June 30, 2006), involving an incarcerated
veteran with a similar factual scenario to that of Hawes in the instant case. In Crosby, a Florida
inmate sued state prison officials under 42 U.S.C. § 1983 over the “imposition and collection of
liens on the funds in his [ITF] account” for medical copayments. Crosby, 2006 WL 1836034 at *1.
The plaintiff argued those collections violated his Fourteenth Amendment due process rights
because his ITF account consisted solely of VA benefits exempt from liens under 38 U. S. C.
§ 5301. Id. at *1 B *2. Like Hawes, the Crosby plaintiff funded his ITF account with VA benefits
withdrawn from the federal credit union account in which they were originally deposited. Id. And
like Hawes, the Crosby plaintiff’s suit was premised on the idea that under § 5301, his VA benefits
retained their exempt status upon transfer to another account.
But, after considering Supreme Court precedent 3 and distinguishing sister-circuit cases, 4
the Crosby court reasoned:
In the instant case, the funds from Plaintiff’s inmate account are not funds
derived from Plaintiff’s VA checks, rather, they are funds derived from
money orders from Plaintiff’s savings account at an outside bank. Thus,
the issue in the instant case is not whether VA benefits lose their exempt
status after being deposited into an account from which the veteran
3

See Crosby, 2006 WL 1836034 at *4 (discussing Porter v. Aetna Casualty and Surety Co., 370 U.S. 159, 161
(1962) (holding § 5301 exemptions applied to VA benefits deposited into a bank account that are “subject to demand
and use as the needs of the veteran for support and maintenance required”).
4

Id. at *8 (distinguishing cases from the Third and Ninth Circuits where incarcerated veterans’ claims concerned
funds directly deposited into ITF accounts by the U.S. Treasury).

21a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 11 of 38 PageID #: 752

immediately withdraws them for his support; the issue is whether the
benefits lose their exempt status after being deposited into such an
account, withdrawn from that account, and then deposited into another
account.
There is no question that if Plaintiff deposited his VA check into his
inmate account, the funds would be exempt from the imposition and
collection of liens by the DOC [Florida Department of Corrections];
indeed, DOC policy expressly comports with this. However, the
undersigned concludes that the fact that the VA benefits were withdrawn
from the account in which they were originally deposited and placed into
another account caused the funds to lose their exempt status. Accordingly,
Defendants’ imposition and collection of liens from the funds in the
second account, specifically, Plaintiff’s inmate account, did not violate §
5301. As Defendants’ conduct did not violate Plaintiff’s federal right
under § 5301, Defendants are entitled to judgment in their favor.
Crosby, 2006 WL 1836034 at *8 B*9. In the instant case, Defendants argue that the same reasoning
applies in this case: on its face, 38 U.S.C. § 5301 protects funds derived from VA checks directdeposited into a primary account but not funds withdrawn from the primary account and deposited
into a second account. Defendants state they are entitled to summary judgment on this issue.
Plaintiff’s Sur-Reply to Defendants’ Joint Summary Judgment Reply
Within several arguments raised by Hawes in his sur-reply (Dkt. #67), Hawes contends the
Court should apply “the absic {sic} principle of accounting, 5 e.g., firstBin, firstBout,” to his ITF
account regarding the receipt and withdrawal of funds during the relevant time period. Despite
Hawes’ request to apply the “absic” principle of accounting to his ITF account, Hawes (and the
Defendants) only provided transaction history reports regarding Hawes’ ITF account in their
respective initial summary judgment evidence. Since how the TDCJ ITF department conducts its
accounting principles is not a constitutional concern and not an issue before the Court, this Court

5

The Court is uncertain if Hawes means basic principles of accounting or if he is referring to a specific
accounting principle known as “absic.”

22a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 12 of 38 PageID #: 753

will not provide an advisory opinion as to how TDCJ should perform its accounting duties
regarding ITF accounts. The Court has since obtained an authenticated document that purports to
contain a transaction-based account balance for Hawes’ ITF account for the relevant time period.
(Dkt. #88-1).
The Court has conducted an independent review of each parties’ summary judgment
evidence. The Plaintiff’s and Defendants’ legal arguments in conjunction with the facts set forth
in the summary judgment evidence will be fully examined in the Discussion and Analysis section
of this Report and Recommendation. For the reasons expressed below, it is recommended that
Defendants’ motions for summary judgment be granted and Hawes’ suit be dismissed in its
entirety.
Standard of Review
A “court shall grant summary judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a). The moving party for summary judgment has the burden of proving the lack of a
genuine dispute as to all the material facts. Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986);
Galindo v. Precision Am. Corp., 754 F.2d 1212, 1221-23 (5th Cir. 1985).
In deciding a motion for summary judgment, the Court must make a threshold inquiry in
determining whether there is a need for a trial. “In other words, whether there are any genuine
factual issues that properly can be resolved only by a finder of fact because they may reasonably
be resolved in favor of either party.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 250 (1986).
“[T]he mere existence of some alleged factual dispute between the parties will not defeat an

23a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 13 of 38 PageID #: 754

otherwise properly supported motion for summary judgment; the requirement is that there be no
genuine issue of material fact.” 477 U.S. at 247-48.
If the movant satisfies its initial burden of demonstrating the absence of a material fact
dispute, then the non-movant must identify specific evidence in the summary judgment record
demonstrating that there is a material fact dispute concerning the essential elements of its case for
which it will bear the burden of proof at trial. Douglass v. United Servs. Auto. Ass’n, 79 F.3d 1415,
1429 (5th Cir. 1996). The non-movant cannot survive a motion for summary judgment by resting
on the allegations in his pleadings. Isquith v. Middle South Util., Inc., 847 F.2d 186, 199 (5th Cir.),
cert. denied, 488 U.S. 926 (1988). Rather, he must direct the court’s attention to evidence in the
record sufficient to establish that there is a genuine issue of material fact for trial. Celotex, 477
U.S. at 324. To carry this burden, the non-movant must present evidence sufficient to support a
resolution of the factual disputes in his favor. Anderson, 477 U.S. at 257. The non-movant must
submit competent summary judgment evidence sufficient to defeat a properly supported motion
for summary judgment. See, e.g., Burleson v. Texas Dep’t of Criminal Justice, 393 F.3d 577, 58990 (5th Cir. 2004); Domino v. Texas Dep’t of Criminal Justice, 239 F.3d 752, 755 (5th Cir. 2001).
All reasonable inferences are drawn in favor of the non-moving party, but the non-moving party
“cannot defeat summary judgment with conclusory allegations, unsubstantiated assertions, or
‘only a scintilla of evidence.’” Hathaway v. Bazany, 507 F.3d 312, 319 (5th Cir. 2007); Miller v.
Graham, 447 F. App’x 549, 551 (5th Cir. 2011); Chacon v. York, 434 F. App’x 330, 332 (5th Cir.
2011).
“Because summary judgment is a final adjudication on the merits, courts must employ this
device cautiously.” Hulsey v. State of Texas, 929 F.2d 168, 170 (5th Cir. 1991) (citation omitted).

24a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 14 of 38 PageID #: 755

In prisoner pro se cases, courts must be careful to “guard against premature truncation of legitimate
lawsuits merely because of unskilled presentations.” Murrell v. Bennett, 615 F.2d 306, 311 (5th
Cir. 1980).
Discussion and Analysis
1.

Eleventh Amendment Immunity
Defendants Livingston, Stephens, and Pace move for dismissal of the money damages

claim against them in their official capacities, asserting the protection of the Eleventh Amendment.
Hawes has sued Defendants Livingston, Stephens, and Pace in their official capacities and also
seeks relief in the form of monetary damages. Hawes does not specify that he is suing Defendants
in their official capacities for money damages. Nonetheless, to the extent he is seeking money
damages from Defendants in their official capacities, Defendants are correct in arguing that they
are entitled to Eleventh Amendment immunity.
When a plaintiff files suit against state officials in their official capacities, in effect, he is
bringing suit directly against the state. Hafer v. Melo, 502 U.S. 21, 25 (1991); see also McKinley
v. Abbott, 643 F.3d 403, 406 (5th Cir. 2011), cert. denied, 565 U.S. 1079 (2011) (“Eleventh
Amendment immunity extends to state officials who are sued in their official capacities because
such a suit is actually one against the state itself”). Since the State has not consented to suit, in so
far as Hawes filed suit against Defendants for monetary relief in their official capacities,
Defendants are shielded from this lawsuit via the Eleventh Amendment. See Frew v. Hawkins, 540
U.S. 431, 437 (2004) (citing Seminole Tribe of Fla. v. Florida, 517 U.S. 44, 54 (1996)). The Court
recommends that any claim seeking money damages against Defendants in their official capacities
should be dismissed for lack of subject matter jurisdiction.

25a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 15 of 38 PageID #: 756

2.

Statutory Claim under 38 U.S.C. § 5301
The crux of Hawes’ complaint surrounds the application of 38 U.S.C. § 5301 to his inmate

trust fund account regarding his VA benefits. 6 A question of first impression before this Court is
whether Hawes may bring a federal statutory claim for damages for an alleged violation of the
protections found in 38 U.S.C. § 5301 for his VA benefits. Title 38 U.S.C. § 5301 provides in
relevant part:
(a)(1) Payments of benefits due or to become due under any law administered by
the Secretary shall not be assignable except to the extent specifically authorized by
law, and such payments made to, or on account of, a beneficiary shall be exempt
from taxation, shall be exempt from the claim of creditors, and shall not be liable
to attachment, levy, seizure by or under any legal or equitable process whatever,
either before or after receipt by the beneficiary.
The Supreme Court has recognized two purposes for the statutory protection of veterans’ benefits:
(1) “to avoid the possibility of the Veterans’ Administration being placed in the position of a
collection agency,” and (2) “to prevent the deprivation and depletion of the means of subsistence
of veterans dependent upon these benefits as the main source of their income.” Rose v. Rose, 481
U.S. 619, 630 (1987) (quotation marks, ellipses, and citation omitted) (discussing 38 U.S.C. § 3101
(1988), the predecessor of § 5301).
In Neal v. Pentagon Fed. Credit Union, Cause No. ELH-18-451, 2018 WL 5786119 (D.
Md. Nov. 5, 2018), the Maryland district court dismissed a disabled veteran’s claim against a credit
union for allegedly withdrawing disability benefits from her credit union deposit account to cover
overdue loan payments pursuant to Fed. R. Civ. P. 12(b)(6). Neal, 2018 WL 5786119 at *8-10.

6

Hawes asserts these funds are VA disability payments. VA pension payments are discontinued while the
veteran is imprisoned.

26a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 16 of 38 PageID #: 757

The veteran brought her claim against the credit union directly under 38 U.S.C. § 5301 asserting
that the statute created a private right of action for her bring to suit. The district court disagreed
finding that the statute did not create a private right of action. Id. at *10.
Unlike the plaintiff in Neal, supra, Hawes brought his claim against state actors under the
vehicle of 42 U.S.C. § 1983. Title 42 U.S.C. § 1983 can provide a cause of action against persons
acting under color of law who have violated rights guaranteed by federal statutes. Gonzaga Univ.
v. Doe, 536 U.S. 273, 279 (2002). Public employees, or more specifically as to this case, prison
officials, acting in their official capacity or while exercising their responsibilities pursuant to state
law are acting under color of state law. West v. Atkins, 487 U.S. 42, 49-50 (1988).
To create a right enforceable under 42 U.S.C. § 1983, the federal statute at issue must meet
three conditions: First, Congress must have intended that the provision in question benefit the
plaintiff. Second, the plaintiff must demonstrate that the right assertedly protected by the statute is
not so “vague and amorphous” that its enforcement would strain judicial competence. Third, the
statute must unambiguously impose a binding obligation on the States. In other words, the
provision giving rise to the asserted right must be couched in mandatory, rather than precatory,
terms. Blessing v. Freestone, 520 U.S. 329, 340–41 (1997) (citations omitted). Once all three
conditions are met, a rebuttable presumption arises that the right is enforceable under § 1983. Id.
at 341; Pa. Pharmacists Ass’n v. Houstoun, 283 F.3d 531, 535 (3rd Cir. 2002). “This presumption
may be rebutted by showing that Congress expressly or impliedly foreclosed an action under §
1983.” Pa. Pharmacists Ass’n, 283 F.3d at 535.
Congress may impliedly foreclose a remedy under § 1983 “by creating a comprehensive
enforcement scheme that is incompatible with individual enforcement under § 1983.” Blessing,

27a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 17 of 38 PageID #: 758

520 U.S. at 341. Section 5301(a) contains neither express language nor a comprehensive
enforcement scheme that demonstrates that Congress intended to foreclose a remedy under § 1983
for a violation of § 5301(a). The Court is persuaded that § 5301(a) provides a federal right that is
enforceable under § 1983.
The purpose of the prohibition against the attachment, levy, or seizure of a veteran’s
disability benefits in § 5301(a) is to “prevent the deprivation and depletion of the means of
subsistence of veterans dependent upon these benefits as the main source of their income.” Rose,
481 U.S. at 630 (quotation omitted). Even though Hawes, because he is a prisoner, does not
presently need or rely upon his disability benefits for subsistence, his right nonetheless to receive
those benefits free from attachment, levy, or seizure is expressly set forth in clear, mandatory
language in the statute. Section 5301(a) also precludes anyone from using any “legal or equitable
process” to attach, levy, or seize these benefits. Thus, § 5301(a) satisfies the conditions set forth
in Blessing v. Freestone for creating a federal right enforceable under § 1983; but see Burnes v.
Smith, Cause No. 3:18cv608, 2018 WL 3472821 at *4 (M.D. Tenn. July 17, 2018), holding § 5301
“appears to provide a defense against the garnishment of veterans’ benefits but it does not create
a private right of action or establish a basis for federal jurisdiction.”
The finding that a violation of a veteran’s rights under § 5301(a) is enforceable against
state prison officials pursuant to § 1983 is supported by the Ninth Circuit’s decision in Nelson v.
Heiss, 271 F.3d 891 (9th Cir. 2001). In Nelson, the court held that future veteran’s benefits are
exempt from a hold placed on an inmate’s account where the inmate consented to and the prison
officials authorized the hold to cover purchases of medical-record copies and dental appliances
when there were insufficient funds to cover the overdrafts. Id. at 893–96. The Ninth Circuit held

28a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 18 of 38 PageID #: 759

that the holds placed on the veteran’s inmate account by the prison officials violated § 5301(a)
because a veteran’s benefits are exempt from assignment, attachment, levy, or seizure. Id. In
Nelson, the state actors were attempting to recoup funds advanced for the veteran’s medical needs.
Id. at 893. In rejecting the contention of the state actors that they had a right to the funds after
providing overdraft protection, the Ninth Circuit reasoned: “Section 5301(a) was designed to
protect veteran’s benefits against their creditors so that the veterans themselves could spend those
funds as they saw fit when they actually got them, and not before.” Id.at 894.
Similarly, in Higgins v. Beyer, 293 F.3d 683, 690 (3rd Cir. 2002), the Third Circuit held
that § 5301(a)(1) “satisfies the conditions set forth in Blessing v. Freestone for creating a federal
right enforceable under § 1983.” The Higgins court found that the plaintiff alleged sufficient facts
to support a § 1983 claim where prison officials collected a crime victims’ assessment from his
VA benefits against his will. Id.
Based on the holding of Blessings, and the persuasive authority of Nelson and Higgins,
Hawes may bring a federal statutory claim under 38 U.S.C. § 5301, through the vehicle of 42
U.S.C. § 1983, for an alleged violation of his rights protected by federal statute.
A.

Application of Title 31 C.F.R. Part 212 to 38 U.S.C. § 5301.
1.

The purpose and mechanism of 31 C.F.R. § 212

To assist the Court in reviewing the issues raised in the instant case, the Court relies upon
31 C.F.R. Part 212CGarnishment of Accounts Containing Federal Benefit Payments and the
“Guidelines for Garnishment for Accounts Containing Federal Benefit Payments,” per issuance of
Title 31, Part 212 of the Code of Federal Regulations, March 2011 (“the Guidelines”). Below is a
summary of the pertinent rules regarding 31 C.F.R. § 212:

29a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 19 of 38 PageID #: 760

Title 31 C.F.R. § 212 went into effect on May 1, 2011. The Department of the Treasury
began encoding Automated Clearing House (ACH) payments to enable receiving financial
institutions to identify Federal benefit payments subject to the requirements of 31 C.F.R. § 212.
This statute applies to Federal programs such as: (1) Social Security and Supplemental Security
Income benefits administered by the Social Security Administration, (2) Veterans’ benefits
administered by the Department of Veterans Affairs, (3) Federal Railroad retirement
unemployment and sickness benefits administered by the Railroad Retirement Board, and (4) Civil
Service Retirement System and Federal Employee Retirement System benefits administered by
the Office of Personnel Management.
In order for federal benefits to qualify for protection (e.g., from garnishment, levy, or other
legal process), they must be directly deposited into the bank account. Federal benefit deposits made
by check do not qualify for protection. The protected amount is based only on the federal benefit
deposits identified in the previous two months immediately preceding the garnishment order, levy
or other legal process. 7 The bank is required to review the accounts of the person named in the
garnishment order within two days after receipt of an order. For example, if during the look-back
period, 8 the bank identifies two federal benefit deposits of $1,000 each, they are required to protect
$2,000 of funds in the account.

7

When the phrase “garnishment” or “garnishment order” is used, it is also intended to include the term “levy”
and “or other legal process.”
8

Look-back period means the two-month period that (i) begins on the date preceding the date of account review
and (ii) ends on the corresponding date of the month two months earlier, or on the last date of the month two months
earlier if the corresponding date does not exist (e.g., June 31st).

30a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 20 of 38 PageID #: 761

The bank is required to review all accounts for the person named in the garnishment order
but is only required to protect funds in the account(s) where the federal benefits are direct
deposited. If money is moved from the checking account (where the VA benefit is direct deposited)
into a savings account, for example, the funds in the savings account are not protected from
garnishment. Any funds in the account in excess of the protected amount established during the
two-month period preceding the garnishment order are not protected and are eligible for
garnishment per the order received by the bank.
The purpose of Part 212 is to “protect Federal benefits from garnishment by establishing
procedures that a financial institution must follow when served a garnishment order against an
account holder into whose account a Federal benefit payment has been directly deposited.” 31
C.F.R. § 212.1. “Garnishment order” is defined as “a writ, order, notice, summons, judgment, levy
or similar written instruction issued by a court, a State or State agency, a municipality or municipal
corporation, or a State child support agency.” Id. § 212.3.
2.

The parties’ arguments regarding 31 C.F.R. §212.

In his Second Motion for Summary Judgment, Hawes asserts that the Defendants have
violated his procedural due process rights by failing to comply with the procedures set out in 31
C.F.R. § 212 pertaining to the “garnishment” of the $100 medical co-payment. (Dkt. #74). This
claim lacks merit because Hawes fails to show, and research does not demonstrate, that the
regulations which he cites give rise to a private cause of action. The Supreme Court has explained
that “the fact that a federal statue has been violated and some person harmed does not automatically
give rise to a private cause of action in favor of that person.” Touche Ross & Co. v. Reddington,
442 U.S. 560, 568 (1979). In determining whether a private cause of action exists, the dispositive

31a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 21 of 38 PageID #: 762

question is whether Congress intended to confer federal rights upon the beneficiaries of the statute
in question. California v. Sierra Club, 451 U.S. 287, 294 (1981); Transamerica Mortgage
Advisors, Inc. v. Lewis, 444 U.S. 11, 15 (1979) (noting that “the question whether a statute creates
a cause of action, either expressly or by implication, is basically a matter of statutory
construction.”). In this case, 31 C.F.R. § 212 sets out procedures for financial institutions to follow
with regard to a garnishment order against an account holder into whose account a Federal benefit
payment has been directly deposited. There is no intimation that Congress intended to create a
private cause of action for prisoners or other persons through the enactment of this statute.
Furthermore, research reveals no state or federal case allowing a lawsuit under this statute to
proceed. To the extent Hawes seeks to assert a due process claim against Defendants under 31
C.F.R. § 212, his complaint is without merit.
In Defendants’ second motion for summary judgment (Dkt. #78), Defendants Stephens and
Livingston assert that 31 C.F.R. § 212 is not applicable to them or TDCJ because TDCJ does not
meet the definition of a “financial institution” pursuant to 31 C.F.R. § 212.3 and is not a “federal
banking agency” pursuant to 31 C.F.R. § 212.11(a). The Court agrees that TDCJ is neither a
financial institution nor a federal banking agency.

9

Hawes’ claim, however, fails because, as

stated above, § 212 does create a private right of action. Instead, Title 31 C.F.R. § 212 provides a

9

In their Second Motion for Summary Judgment, Defendants Stephens and Livingston also argue that if the Court
accepts Hawes’ analysis regarding the applicability of 31 C.F.R. § 212 to TDCJ then the same logic dictates that the
Court is also barred from collecting PLRA filing fees from Hawes or any other similarly-situated prisoner. (Dkt. #78,
p. 2). Defendants’ logic is based on a gross misconception. Under 28 U.S.C. § 1915A, a prisoner seeking to proceed
in forma pauperis must authorize the release of the funds from their ITF account to pay their initial partial filing fee
and the 20% fee collected from periodic deposits to their ITF account. Defendants have not presented any documents
attached to their summary judgment motions showing that the fee assessed and collected by Defendants was authorized
by the plaintiff.

32a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 22 of 38 PageID #: 763

framework for the evaluation of the monies in Hawes’ ITF account and assists in the determination
of what funds are protected by 38 U.S.C. § 5301.
B.

Deposits from the Altra Federal Credit Union account into Hawes’ ITF account.

Hawes is suing Defendants Stephens, Livingston, and Pace because a $100.00 medical copayment fee was withdrawn from his inmate trust fund account on December 11, 2015. 10 He
claims all the monies in his inmate trust fund account are protected by 38 U.S.C. § 5301, and that
the defendants violated the statute by not having policies in place to recognize the source of the
funds and prevent the withdrawal. Hawes argues that the deposits from his Altra Federal Credit
Union account into his inmate trust fund account (ITF) are also protected under § 5301. Hawes
moves for partial summary judgment on this issue.
Defendants contend that Hawes failed to provide any evidence that he informed Defendants
that his private bank account deposits were, in fact, wholly comprised of VA benefits prior to the
December 11, 2015 withdrawal. Moreover, Defendants assert that Hawes failed to provide any
evidence that his private bank account deposits into his ITF account were, in fact, wholly
comprised of VA benefits prior to the December 11, 2015 withdrawal. Defendants further assert
even if the funds in the Altra Federal Credit Union account are derived from VA benefits that the

10

Texas law authorizes the collection of annual $100 co-payments for health care purposes from its prisoners.
Tex. Gov’t Code § 501.063. Pursuant to the statute, “[a]n inmate confined in a facility operated by or under contract
with the department . . . who initiates a visit to a health care provider shall pay a health care services fee to the
department in the amount of $100.” Tex. Gov’t Code § 501.063(a)(1). The “department” for purposes of the statute is
the Texas Department of Criminal Justice (“TDCJ”). See Tex. Gov’t Code § 491.001(a)(3). The statute also prohibits
TDCJ from denying an inmate access to medical care as a result of his inability or failure to pay the co-payment. Tex.
Gov’t Code § 501.063(c). The Fifth Circuit has found that the prison system may take funds from an inmate’s trust
fund account for medical care. Morris v. Livingston, 739 F.3d 740, 748 (5th Cir.), cert denied, ---U.S.---, 134 S. Ct.
2734 (2014). The Court specifically rejected due process challenges to the statute. Id. at 750-51.

33a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 23 of 38 PageID #: 764

funds deposited in Hawes’ ITF from his private Altra Federal Credit Union are not protected by
38 U.S.C. § 5301 per Purvis v. Crosby, 2006 WL 1836034 (N.D. Fla. June 30, 2006), supra.
In his declaration submitted pursuant to 28 U.S.C. § 1746, Hawes testifies that he moved
money from his Altra Federal Credit Union (Altra FCU) account to his ITF account in the amount
of $80 per month. (Dkt. #48-7, pp. 2-5 or Exhibit G to Plaintiff’s Partial Summary Judgment
Motion). He further states that in January 2016, the transfer of funds from the Altra FCU to his
ITF account stopped. Id. at 2. Hawes’ Inmate Banking - Transaction history for his ITF account
does reflect monthly deposits of $80 each from him on January 8, 2015, February 10, 2015, March
11, 2015, April 9, 2015, May 8, 2015, June 10, 2015, July 10, 2015, August 10, 2015, September
11, 2015, October 8, 2015, November 2, 2015, and December 10, 2015. (Dkt. #58-1, pp. 11-12).
Hawes asserts in his declaration that prior to January 2014, his VA disability payment was
directly deposited into his Altra FCU account in the amount of $130.94 per month. (Dkt. 48-7, p.
2). 11 Based on 31 C.F.R. § 212, the VA disability payments that were direct-deposited into his
Altra FCU account were protected as long as they remained in his Altra FCU account, subject to
the look-back provision as described in the Guidelines, from garnishment.
As to his claim that his funds transferred from his Altra FCU account to his ITF account
are protected by 38 U.S.C. § 5301, that claim is meritless. Title 31 C.F.R. § 212 makes it clear that
only the funds that are direct-deposited into a financial account by the U.S. Treasury are protected
from garnishment. Since the monthly deposits of $80 were not direct-deposited by the U.S.

11

Other than Hawes’ declaration, no other summary judgment evidence has been presented that corroborates
this statement. Hawes would bear the burden of proof on this particular issue at trial. There is no summary judgment
evidence independently establishing that U.S. Treasury deposits are the only source of funds for the Altra FCU
account. See Fed. R. Evid. 1002.

34a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 24 of 38 PageID #: 765

Treasury into Hawes’ ITF account, those funds do not enjoy the protection of 38 U.S.C. § 5301,
even though their original source was protected. 12 As such, the deposits from Hawes’ Altra FCU
account are not protected from garnishment.
The Court also notes that deposits of $300 each by a “J. Barger” were made on August 21,
2015 and September 22, 2015 (Dkt. #58-1, p. 11). These deposits, like any deposit not directdeposited by the U.S. Treasury, are not protected from garnishment. 13
Based on the summary judgment evidence submitted to the Court and the applicable law,
Hawes has not shown that the Defendants have violated his federal statutory right under 38 U.S.C.
§ 5301 as it pertains to the deposits into his ITF account from his private Altra FCU account. The
Court recommends that Plaintiff’s Partial Motion for Summary Judgment be denied.
C.

Direct Deposit of U.S. Treasury funds to Hawes’ ITF account.

Examining the deposits in Hawes’ ITF account (Dkt. #58-1, pp. 11-13 or Exhibit C to
Defendants’ summary judgment motion), Hawes received payments or deposits from the U.S.
Treasury on September 11, 2015, October 7, 2015, November 2, 2015, and December 9, 2015,
each in the amount of $133.17, which are presumably the receipt of Hawes’ VA benefits. These
four deposits in Hawes’ ITF account would initially qualify for protection from garnishment under

12
The Court also notes that Hawes’ Exhibit FCa copy of an unsigned letter, dated August 23, 2016, addressed to
“Whom it may concern,” with a stamped name and address of Altra Federal Credit Union and a notary stamp at the
bottom with no signator, affiant or verification with the notary stamp—is not competent evidence to prove that the
sole source of the funds deposited into the Altra FCU were from the VA. See Fed. R. Civ. P. 56(c)(4).

13

Hawes asserts that the collection of the $100 medical co-payment caused him to be short of funds; and thus,
an order for craft shop supplies was cancelled. To the extent that Hawes receives payment from individuals purchasing
his craft shop creations, those funds are not protected from garnishment.

35a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 25 of 38 PageID #: 766

38 U.S.C. § 5301 as they appear to be direct-deposited into his ITF account. Under § 212; however,
not all of the four deposits would be protected from garnishment.
Using the look-back method as described in the Guidelines to 31 C.F.R. § 212, 14 and
treating the December 11, 2015, $100 medical co-payment fee as the date of the triggering
garnishment order, 15 the preceding date to December 11, 2015 is December 10, 2015. Lookingback from December 10, 2015 for two months shows a protected time period from October 10,
2015 to December 10, 2015. Any U.S. Treasury deposit made during the time period of October
10, 2015 to December 10, 2015 would be protected from garnishment. The November 2, 2015,
and December 9, 2015 U.S. Treasury deposits would be protected during this time period. The
September 11, 2015, and October 7, 2015 U.S. Treasury deposits would not be protected from
garnishment as they are beyond the two-month look-back period as explained in the Guidelines to
31 C.F.R. § 212.
As directed by the Court, Defendants provided relevant documents from Hawes’ TDCJ
Commissary and Trust Fund account file maintained by TDCJ, with a business records affidavit.
(Dkt. #88-1). Applying the above analysis from the § 212 Guidelines to the documents from
Hawes’ TDCJ Commissary and Trust Fund account, the Court must determine the amount of
Hawes’ account balance on December 10, 2015. The documents reflect that Hawes had an account
balance of $444.12 on December 10, 2015. (Dkt. #88-1, p. 5).

14

See Fn. 8, supra.

15

The medical co-payment fee debit is not, in fact, a garnishment order. Neither party briefed the issue of “levy”
or “other legal process” and the applicable process to the facts of this case.

36a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 26 of 38 PageID #: 767

Based on the application of 31 C.F.R. § 212 to § 5301, only $266.34 16 in Hawes’ ITF
account would be protected from garnishment on December 10, 2015. Any other available funds
in Hawes’ ITF account on that date would be subject to garnishment, or in this case, eligible for
use to pay his annual medical co-payment as directed by Tex. Gov’t Code § 501.063. As the ITF
account information reflects a balance of $444.15 on December 10, 2015, of which $266.34 would
be protected as VA benefits under 38 U.S.C. § 5301, $177.81 ($444.15 – 266.34) in the ITF
account would not be protected. As such, the withdrawal of the $100 medical co-payment from
Hawes’ ITF account on December 11, 2015, did not violate the statutory protections of 38 U.S.C.
§ 5301. The Court recommends that the Defendants are entitled to summary judgment on the issue
that the withdrawal of the $100 medical co-payment on December 11, 2015 did not violate Hawes’
statutory rights under 38 U.S.C. § 5301 as the copayment was drawn from unprotected funds.
3.

Hawes’ Due Process claim.
Liberally construed, Hawes’ Amended Complaint alleges that Defendants have violated

his procedural due process rights under the Fourteenth Amendment by the collection of the $100
annual, medical co-payment fee that was withdrawn from his inmate trust fund account on
December 11, 2015. He claims all the monies in his inmate trust fund account are protected by 38
U.S.C. § 5301, and that the defendants violated the statute by not having policies in place to
recognize the source of the funds and prevent the withdrawal.
The Fourteenth Amendment applies to the States and guarantees procedural due process
only for deprivation of “life, liberty, or property.” U.S. Const. amend. XIV, § 1. To prevail on a

16

The amount of $266.34 is the sum of the November 2, 2015, and December 9, 2015 U.S. Treasury deposits of
$133.17 each.

37a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 27 of 38 PageID #: 768

procedural due process claim, a plaintiff must show 1) that he suffered a deprivation of a
constitutionally protected interest in “life, liberty, or property,” and 2) that such deprivation
occurred without due process of law. Zinermon v. Burch, 494 U.S. 113, 125–26 (1990) (citations
omitted). “In procedural due process claims, the deprivation by state action of a constitutionally
protected interest in ‘life, liberty, or property’ is not in itself unconstitutional; what is
unconstitutional is the deprivation of such an interest without due process of law.” Id. at 125
(citation omitted); see also Morris v. Livingston, 739 F.3d at 749–50 (citations omitted).
While “[a] veteran has a constitutionally protected property interest in entitlement to VA
disability benefits,” Morris v. Shinseki, 26 Vet. App. 494, 508 (2014) (citing Cushman v. Shinseki,
576 F.3d 1290, 1298 (Fed. Cir. 2009) (“We conclude that ... entitlement to benefits is a property
interest protected by the Due Process Clause....”), no such constitutionally protected property
interest exists in Hawes’ particular factual circumstance. As noted in Section 2.C. above, Hawes’
protected VA benefits in his ITF account were not affected by the collection of the $100 medical
copayment fee. The application of 31 C.F.R. § 212 to the funds in his ITF account revealed that
$177.81 in his account were not shielded by 38 U.S.C. § 5301; thus, no due process violation
occurred when the $100 medical copayment was collected.
And while a prisoner has a protected property interest in the funds in his prison account,
Eubanks v. McCotter, 802 F.2d 790, 792–94 (5th Cir. 1986); once again, no such constitutionally
protected property interest exists in Hawes’ particular factual circumstance. Since the instant case
speaks specifically to the withdrawal of funds from an ITF account to satisfy the $100 medical
copayment fee, the Court is strictly guided by the Fifth Circuit’s holding in Morris v. Livingston.
In Morris, the Fifth Circuit upheld the implementation of the medical copayment policy. Id. at 748.

38a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 28 of 38 PageID #: 769

The Fifth Circuit held that the prison system may take funds from an inmate’s trust fund account
for medical care and specifically rejected any due process challenges to the statute. 17 Id. at 75051. Based on the law in this circuit, Hawes does not have a procedural due process claim for the
collection of a medical copayment from his ITF account, as long as it does not implicate protected
funds.
No actionable violation of his rights occurred, and his due process claim thus “lack[s] an
arguable basis either in law or in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989). Hawes’ due
process claims against Defendants, in both their official and individual capacities, should be
dismissed for failure to state a claim.
4.

Conspiracy
Hawes alleges the Defendants have engaged in a conspiracy to convert funds belonging to

him and have thereby committed theft. To prove a conspiracy, plaintiff must prove an actual
deprivation of a constitutional [or statutory] right. Slavin v. Curry, 574 F.2d 1256, 1261 (5th Cir.
1978); Villanueva v. McInnis, 723 F.2d 414, 418 (5th Cir. 1984); see also Pfannstiel v. City of
Marion, 918 F.2d 1178, 1183 (5th Cir. 1990). “The elements of civil conspiracy are (1) an actual
violation of a right protected under § 1983 and (2) actions taken in concert by the defendants with
the specific intent to violate the aforementioned right.” Kerr v. Lyford, 171 F.3d 330, 340 (5th Cir.
1999). Mere conclusory allegations of conspiracy, absent reference to material facts, do not state
a cause of action under 28 U.S.C. § 1983. See Marts v. Hines, 68 F.3d 134, 136 (5th Cir. 1995) (en

17

The Fifth Circuit found that TDCJ had posted a constitutionally-sufficient notice to all inmates regarding the
application of the annual medical copayment fee for certain triggering events. Morris, 739 F.3d at 750-51. This Court
takes judicial notice that notice is provided to the inmates in the TDCJ’s Offender Orientation Handbook, p. 39, of the
annual $100 medical copayment fee. tdcj.texas.gov/documents/Offender_Orientation_Handbook_English .pdf, last
visited January 31, 2019.

39a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 29 of 38 PageID #: 770

banc). Hawes has failed to establish the necessary elements of a conspiracy, the actual violation
of a right protected under § 1983. Moreover, Hawes has stated nothing more than conclusory
allegations that the Defendants have participated in a conspiracy to deprive him of his funds in his
ITF account. The Court recommends that this claim be dismissed for failure to state a claim.
5.

Theft
Hawes summarily argues that the Defendants have committed theft because of the

confiscation of the annual $100 medical co-payment from his ITF account. As discussed above,
TDCJ is permitted to collect the annual $100 medical co-payment from him. The Fifth Circuit has
found that the prison system may take funds from an inmate’s trust fund account for medical care.
Morris v. Livingston, 739 F.3d at 748. As such, Hawes has failed to state facts that establish that a
theft has occurred.
To the extent Hawes is attempting to bring a claim for state law theft against the
Defendants, that claim is without merit. The Texas Penal Code does not create a private cause of
action. Thornton v. Merchant, C.A. No. H-10-0616, 2011 WL 147929 (S.D. Tex. Jan. 18, 2011)
(citing Aguilar v. Chastain, 923 S.W.2d 740, 745 (Tex. App.CTyler 1996, writ ref’d). In Aguilar,
a TDCJ inmate sued a correctional officer under §§ 39.01, 39.02, and 39.03 of the Texas Penal
Code, complaining that the officer had abused his official capacity and violated the rights of a
person in custody, but the Texas appeals court held that “the Penal Code does not create private
causes of action, and a victim does not have standing to participate as a party in a criminal
proceeding.” Aguilar, 923 S.W.2d at 745. The Court recommends that Hawes’ theft claim be
dismissed for failure to state a claim.

40a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 30 of 38 PageID #: 771

To the extent Hawes is attempting to bring a claim through the Texas tort of conversion,
the Court declines to exercise pendent jurisdiction over this claim, as no federal claims have
survived summary judgment. The Court recommends that Hawes’ theft claim be dismissed in its
entirety.
6.

Mail and Wire Fraud
Hawes alleges the Defendants committed mail or wire fraud because the “theft of his

property violated federal law because it involved property transferred through the mail or through
federal wire transfer of U.S. Treasury funds.” To the extent Hawes seeks to enforce a criminal
statute or have someone criminally prosecuted, it fails to state a claim. “Private citizens do not
have the right to bring a private action under a federal criminal statute.” Sappore v. Arlington
Career Inst., No. 3:09-CV-1671-N, 2010 WL 446076, at *2 (N.D. Tex. Feb. 8, 2010) (citing Pierre
v. Guidry, 75 F. App’x 300, 301 (5th Cir. 2003) (per curiam)). A private party may not enforce
criminal statutes through a civil action. Florance v. Buchmeyer, 500 F.Supp.2d 618, 626 (N.D.
Tex. 2007). Nor is there a constitutional right to have someone criminally prosecuted. See Oliver
v. Collins, 914 F.2d 56, 60 (5th Cir. 1990). The Hawes’ claim for mail or wire fraud fails to state
a claim. The Court recommends that Hawes’ claim for mail or wire fraud be dismissed for failure
to state a claim.
7.

Denial of grievances and inadequate grievance system
Hawes alleges that Defendant Pace failed to properly and thoroughly investigate his

grievances. He also complains that the TDCJ grievance process is grossly inadequate and fails to
provide any meaningful resolution of prisoner grievances.

41a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 31 of 38 PageID #: 772

Hawes is essentially suing Defendant Pace because she denied his Step 1 grievance. The
denial of a grievance does not implicate a civil rights violation because Hawes has no federally
protected liberty interest in having his grievances decided in his favor. Morris v. Cross, 476 F.
App’x 783, 785 (5th Cir. 2012) (citing Geiger v. Jowers,404 F.3d 371, 374 (5th Cir. 2005)).
Hawes claim that TDCJ grievance process is grossly inadequate and failure to provide him
adequate relief is meritless. Congress requires inmates to exhaust their “administrative remedies
as are available . . .” 42 U.S.C. § 1997e(a). A prison system is not required to establish grievance
procedures, and inmates do not have a basis for a lawsuit because a prison system has not
established grievance procedures or fails to adhere to it. 42 U.S.C. § 1997e(b). The Fifth Circuit
has made it clear that inmates do not have a basis for a meritorious civil rights lawsuit just because
they are unhappy with grievance procedures:
Geiger does not have a federally protected liberty interest in having these
grievances resolved to his satisfaction. As he relies on a legally nonexistent interest,
any alleged due process violation arising from the alleged failure to investigate his
grievances is indisputably meritless.
Geiger v. Jowers, 404 F.3d 371, 374 (5th Cir. 2005). The Fifth Circuit has regularly rejected
complaints about prison grievance systems. See, e.g., Jackson v. Dunn, 610 F. App’x 397, 398 (5th
Cir. 2015); Burgess v. Reddix, 609 F. App’x 211, 212 (5th Cir. 2015); Sanchez v. Calfee, 558 F.
App’x 428, 430 (5th Cir. 2014). Hawes fails to state a claim against Defendant Pace because she
denied his Step 1 grievance. Likewise, his complaints about the adequacy of TDCJ’s grievance
process are not actionable. This Court recommends that Hawes’ complaints regarding the denial
of his grievances and his dissatisfaction with the grievance system be dismissed for failure to state
a claim.

42a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 32 of 38 PageID #: 773

8.

Qualified Immunity
The Defendants argue that they are entitled to summary judgment based on qualified

immunity. The defense of qualified immunity protects government officials performing
discretionary functions from “liability for civil damages insofar as their conduct does not violate
clearly established rights which a reasonable person would have known.” Harlow v. Fitzgerald,
457 U.S. 800, 818 (1982); Lytle v. Bexar Cnty., Tex., 560 F.3d 404, 409 (5th Cir. 2009). “Qualified
immunity gives government officials breathing room to make reasonable but mistaken judgments
about open legal questions.” Ashcroft v. al-Kidd, 563 U.S. 731, 743 (2011). “When properly
applied, it protects all but the plainly incompetent or those who knowingly violate the law.” Id.
(internal quotation marks omitted). “When a defendant invokes qualified immunity, the burden is
on the plaintiff to demonstrate the inapplicability of the defense.” McClendon v. City of Columbia,
305 F.3d 314, 323 (5th Cir. 2002).
To demonstrate the inapplicability of the qualified immunity defense, the plaintiff must
satisfy a two-prong test. Saucier v. Katz, 533 U.S. 194, 200 (2001). The first prong is whether “the
challenged conduct, viewed in the light most favorable to the plaintiff, would actually amount to
a violation of [constitutional or] federal law.” Wernecke v. Garcia, 591 F.3d 386, 392 (5th Cir.
2009) (citation omitted). The second is “whether the defendant’s actions violated clearly
established statutory or constitutional rights of which a reasonable person would have known.”
Flores v. City of Palacios, 381 F.3d 391, 395 (5th Cir. 2004) (citations omitted). A court may
consider the two-pronged inquiry in any order. Pearson v. Callahan, 555 U.S. 223, 236 (2009).
In the present case, as discussed in the previous sections, Hawes has not shown a violation
of his constitutional or federal statutory rights. On this ground alone, the Defendants are entitled

43a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 33 of 38 PageID #: 774

to summary judgment based on qualified immunity. Hawes, likewise, has failed to satisfy the
second prong in the qualified immunity analysis. Recently, the Supreme Court in District of
Columbia v. Wesby, BU.S.B, 138 S. Ct. 577, 590 (2018) stated that “[t]he ‘clearly established’
standard also requires that the legal principle clearly prohibit the officer’s conduct in the particular
circumstances before him.’” The rule’s contours must be so well defined that it is “clear to a
reasonable officer that his conduct was unlawful in the situation he confronted.” Saucier v. Katz,
533 U.S. 194, 202 (2001). This requires a high “degree of specificity.” Mullenix v. Luna, 577 U.S.
BBB, BBB, 136 S. Ct. 305, 309 (2015) (per curiam). The Supreme Court has repeatedly stressed that
courts must not “define clearly established law at a high level of generality, since doing so avoids
the crucial question whether the official acted reasonably in the particular circumstances that he or
she faced.” Plumhoff v. Rickard, 572 U.S. 765, 779 (2014) (internal quotation marks and citation
omitted).
In light of the application of 31 C.F.R. § 212 to 38 U.S.C. § 5301 to the facts of this
particular case, Hawes cannot show that the Defendants acted unreasonably in the collection of the
$100 medical co-payment from his ITF account since not all the funds deposited into the account
are protected from garnishment. The Court recommends that the Defendants are entitled to
qualified immunity in their individual capacities.
9.

Application of 42 U.S.C. § 1997e(e)
Defendants urge this Court to find that 42 U.S.C. § 1997e(e) bars Hawes’ claims for

compensatory damages in the absence of a physical injury. The Defendants are correct that Hawes
has not alleged any physical injury from the purported violation of his federal statutory rights.
Hawes has requested compensatory damages for the emotional, physical, and financial injuries he

44a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 34 of 38 PageID #: 775

suffered. (Dkt. #24, pp. 16-17). The Court agrees that 42 U.S.C. § 1997e(e) bars claims for
compensatory damages in the absence of a physical injury. The Fifth Circuit “has held that §
1997e(e) prevents a prisoner who has not alleged a physical injury from seeking compensatory
damages.” Hutchins v. McDaniels, 512 F.3d 193, 196 (5th Cir. 2007) (prisoner denied
compensatory damages in the absence of a physical injury); Herman v. Holiday, 238 F.3d 660,
665 (5th Cir. 2001) (“Thus, we conclude that as a matter of law, Herman is not entitled to money
damages for physical injury as he has failed to allege such an injury, and as a result of failing to
so allege, pursuant to§ 1997e(e) and our own precedent. Herman is likewise not entitled to money
damages for the mental and emotional stress ...”). The Fifth Circuit has ruled that the physical
injury required by § 1997e(e) “must be more than de minimis but need not be significant.” Harper
v. Showers, 174 F.3d 716, 719 (5th Cir. 1999). The Court recommends that Hawes’ claim for
compensatory damages be denied as barred by 42 U.S.C. § 1997e(e).
10.

Prospective Injunctive Relief
Hawes seek prospective injunctive relief from the Defendants in their official capacities in

the form of: (1) ceasing and desisting from confiscating money from his ITF account until it is
established he has an alternate source of income, (2) requiring TDCJ to develop an institutional
policy and plan to identify inmates who receive VA benefits and exempt those funds from levy or
garnishment, and (3) establishing third party oversight of inmate grievances by an independent
review committee. An exception to the Eleventh Amendment immunity exists with respect to
claims against state officials for prospective injunctive relief. Ex parte Young, 209 U.S. 123 (1908).
A plaintiff must demonstrate three elements to show standing: (1) injury in fact, (2)
causation, and (3) redressability. Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992). The

45a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 35 of 38 PageID #: 776

redressability element requires that a favorable decision for the plaintiff will likely, not merely
speculatively, redress his injuries. Id. Moreover, the Fifth Circuit has held that a state official
cannot be enjoined to act in any way that is beyond his authority to act in the first place. Okpalobi
v. Foster, 244 F.3d 405, 427 (5th Cir. 2001).
Based on the Court’s analysis above, Hawes has failed to show a necessary element to
establish his entitlement to prospective injunctive relief. Hawes has failed to show that he has
suffered an injury in fact as to his claims that any defendant has confiscated money from his ITF
account in contravention of federal statutory law or maintains an inadequate prison grievance
system. Furthermore, Hawes has failed to show that he will suffer an injury in the future or is
suffering a continuous, ongoing injury related to Defendants’ actions. He must show standing by
alleging “facts from which it appears there is a substantial likelihood that he will suffer injury in
the future.” Bauer v. Texas, 341 F.3d 352, 358 (5th Cir. 2003); see Lujan, 504 U.S. at 560 n.1
(holding that a plaintiff lacks Article III standing where the alleged injury does not affect the
plaintiff “in a personal and individual way”).
Additionally, Hawes’ request for the creation of an institutional policy to identify inmates
who receive VA benefits and exempt their funds from garnishment is moot. TDCJ already has a
mechanism in place to address these issues. Dena Lerma, an Accountant II with TDCJ’s ITF
department, testified that U.S. Treasury direct-deposits for the payment of VA benefits are flagged
with a V02 code to ensure those funds are protected. (Dkt. #58-1, pp. 2-4, 6-7). See Wallace v.
Texas Tech Univ., 80 F.3d 1042, 1047 n.3 (5th Cir. 1996) (claim for injunctive relief is moot where
there is not a reasonable likelihood plaintiff will again be subjected to allegedly unconstitutional
actions); Cooper v. Sheriff, Lubbock Cnty., Texas, 929 F.2d 1078, 1084 (5th Cir. 1991) (request

46a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 36 of 38 PageID #: 777

for injunctive relief is moot where prisoner was no longer housed in challenged facility).
Moreover, Defendants are correct that prospective injunctive relief must be narrowly tailored and
must not extend any further than necessary to correct the violation. 18 U.S.C. § 3626.
This Court recommends that Hawes’ request for prospective injunctive relief be denied as
he has failed to establish the necessary elements of standing for the purposes of jurisdiction.
11.

Claim for Declaratory Relief
In his Amended Complaint, Hawes asserts that he is requesting that the Court issue a

declaratory judgment against the defendants in their respective individual capacities to the effect
of:
1)

Defendants Stephens, Livingston, and Pace violated Plaintiff=s constitutional rights
to due process;

2)

Defendants Stephens, Livingston, and Pace deprived the Plaintiff of the use of his
Veterans Administration benefits by confiscating the amount of $100.00;

3)

Defendants Stephens, Livingston, and Pace’s actions caused Plaintiff financial
hardship, emotional distress, and deprived him the opportunity to purchase
commissary items;

4)

Defendants Stephens and Livingston personally received benefit through their
unlawful acts;

5)

Defendants Stephens, Livingston, and Pace committed acts of theft, by creating
policies that permitted unlawful confiscation of inmate property;

6)

Defendants Stephens, Livingston, and Pace failed to establish an institutional
grievance procedure that provides meaningful review of inmate grievances and
prevents violations of due process, and has a result of such failure Plaintiff has
suffered violations of due process and incurred damages;

7)

Defendants Stephens, Livingston, and Pace had prior knowledge that inmates who
receive Veterans’ Administration Benefits are exempt from garnishment or levy if
that is their sole source of income as established under federal law; and,

47a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 37 of 38 PageID #: 778

8)

Defendants Stephens, Livingston, and Pace’s actions resulted in violations of
Plaintiff’s rights under the Eighth Amendment of the U.S. Constitution.

The Declaratory Judgment Act (28 U.S.C. §§ 2201-2202) does not create an independent
cause of action; instead, it provides a form of relief. Aetna Life Ins. Co. v. Haworth, 300 U.S. 227,
240 (1937). The Act gives a federal court the power to enter a declaratory judgment only in a case
of actual controversy that is otherwise within its subject matter jurisdiction. 28 U.S.C. § 2201. The
Act is not an independent source of subject matter jurisdiction. In re: B727 Aircraft, 272 F.3d 264,
270 (5th Cir. 2001). The existence of an actual case or controversy is a condition precedent for a
declaratory judgment action. To be entitled to a declaratory judgment, a plaintiff must show that
there is an actual case or controversy under Article III of the Constitution. See Lawson v. Callahan,
111 F.3d 403, 404-05 (5th Cir. 1997). Hawes has failed to establish through the summary judgment
evidence and the applicable law that an actual case or controversy exists. He, thus, has failed to
explain how he meets the necessary elements in order to establish that he is entitled to declaratory
relief.
To the extent Hawes seeks relief only as to past conduct that allegedly violated his
constitutional rights, there is no present, continuing, or actual controversy permitting the Court to
grant a declaratory judgment. See Johnson v. Onion, 761 F.2d 224, 225 (5th Cir. 1985). To be
entitled to declaratory relief, Hawes would have to establish that the challenged conduct is
continuing or will be repeated in the future. Id. As the event, which is the basis for this lawsuit,
arose in 2015, and Hawes does not complain that the same event has occurred since, his claim for
declaratory relief is moot. See Gillespie v. Crawford, 858 F.2d 1101, 1103 (5th Cir. 1988) (claim
for declaratory relief moot where prisoner challenging conditions of confinement had been
released). The Court, therefore, recommends that Hawes’ request for declaratory relief be denied.

48a

Case 6:16-cv-00442-RC-JDL Document 91 Filed 02/04/19 Page 38 of 38 PageID #: 779

Recommendation
It is recommended that Hawes’ Motion for Partial Summary Judgment (Dkt. #48) and
Second Motion for Summary Judgment (Dkt. #74) be denied. It is recommended that Hawes’
Objection (Dkt. #90) to Defendants Stephens and Livingstons’ Supplement to the Second Motion
for Summary Judgment be overruled. It is further recommended that Defendants Livingston,
Stephens, and Pace’s joint motion for summary judgment (Dkt. #58), Defendants Stephens and
Livingstons’ Second Motion for Summary Judgment (Dkt. #78), Defendant Pace’s Second Motion
for Summary Judgment (Dkt. #79), and Defendants Stephens and Livingston’ Supplement to the
Second Motion for Summary Judgment (Dkt. #88) be granted and that the lawsuit be dismissed
with prejudice.
Within fourteen (14) days after receipt of the Magistrate Judge’s Report, any party may
serve and file written objections to the findings and recommendations contained in the Report.
A party’s failure to file written objections to the findings, conclusions and
recommendations contained in this Report within fourteen days after being served with a copy
shall bar that party from de novo review by the district judge of those findings, conclusions and
recommendations and, except on grounds of plain error, from appellate review of unobjected-to
factual findings and legal conclusions accepted and adopted by the district court. Douglass, 79
F.3d at 1430, superseded by statute on other grounds, 28 U.S.C. § 636(b)(1) (extending the time
to file objections from ten to fourteen days).

So ORDERED and SIGNED this 4th day of February, 2019.

49a

Case 6:16-cv-00442-RC-JDL Document 98 Filed 03/19/19 Page 1 of 10 PageID #: 830

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION

ROGER HAWES, #712549

§

VS.

§

WILLIAM STEPHENS, ET AL.

§

CIVIL ACTION NO. 6:16cv442
(Consolidated with 6:16cv1313)

ORDER OF DISMISSAL
Plaintiff Roger Hawes, an inmate confined in the Texas prison system, proceeding pro
se, filed the above-styled and numbered civil rights lawsuit pursuant to 42 U.S.C. § 1983. The
parties filed cross-motions for summary judgment. The complaint and the motions were
referred to United States Magistrate Judge John D. Love, who issued a Report and
Recommendation (Dkt. #91) concluding that the Defendants’ motions for summary judgment
should be granted and the case should be dismissed. Mr. Hawes has filed objections (Dkt. #97).
Facts of the Case
The original complaint was filed on May 18, 2016. (Dkt. #1). Mr. Hawes’ amended
complaint, the operative pleading in this case, was filed on November 21, 2016. (Dkt. #24).
Mr. Hawes’ claims arose from the December 11, 2015, collection of a $100.00 annual, medical
co-payment from his Inmate Trust Fund Account (ITFA) by the Texas Department of Criminal
Justice (TDCJ). He alleged that the monies in his ITFA are derived from Veterans’
Administration (VA) benefits. Mr. Hawes claims that the money in his ITFA are exempt from
levy or garnishment under federal law pursuant to Title 38 U.S.C. § 5301.

50a

Case 6:16-cv-00442-RC-JDL Document 98 Filed 03/19/19 Page 2 of 10 PageID #: 831

Mr. Hawes stated that in December 2015, he was deprived of $100.00 pursuant to Tex.
Gov’t Code § 501.104, which provides for a $100.00 annual, medical co-payment from
inmates. He asserted that his sole source of income is from VA benefits. As a result, Mr. Hawes
asserted that he suffered financial hardship and emotional distress, including being deprived
of the ability to purchase items necessary to supplement his diet, observe religious holy days,
and maintain personal hygiene. He complained that Defendants Stephens and Livingston failed
to implement institutional policies to identify prisoners who received funds which were exempt
from levy or garnishment, and that Defendant Pace failed to properly and thoroughly
investigate his grievances.
Mr. Hawes also complained that he filed grievances but that the TDCJ grievance
process is grossly inadequate and fails to provide any meaningful resolution of prisoner
grievances. He asserted that no meaningful investigation is conducted and that the grievance
process denied him due process because it “virtually precludes access to any recourse due to
financial hardships and burdens.”
Furthermore, Mr. Hawes asserted that Defendants engaged in a conspiracy to convert
funds belonging to him and have, thereby, committed theft. He theorized that Livingston and
Stephens have budgetary responsibility for TDCJ and, as such, they derived a “personal
benefit” from unlawfully transferring Mr. Hawes’ money in that they received houses, salaries,
and other benefits from the agency based on their fiscal performance. Mr. Hawes argued that
the theft of his property violated federal law because it involved property transferred through
the mail or through federal wire transfer of U.S. Treasury funds.

51a

Case 6:16-cv-00442-RC-JDL Document 98 Filed 03/19/19 Page 3 of 10 PageID #: 832

Mr. Hawes claimed that Defendant Pace has a duty to investigate grievances concerning
medical issues, but in December 2015, she disregarded this duty and “subjected plaintiff to a
prolonged process to recover his property for the medical co-payment she personally imposed
upon him for medical services rendered.” She disregarded 38 U.S.C. § 5301 and relied instead
on Tex. Gov’t Code. § 501.014, causing him to suffer financial hardship and emotional
distress. He also stated that he has been unable to obtain medical care because he cannot afford
to be subjected to any additional medical fees or prolonged deprivation of his VA benefits. Mr.
Hawes stated that Defendant Pace was previously sued in state court for wrongly confiscating
funds but did not indicate the outcome of this state lawsuit. He further stated that Pace’s
administrative duties include authorizing the deductions of medical co-payments or the return
of wrongfully confiscated funds and that Pace failed to identify the source of funds in his
account before taking them.
Mr. Hawes requested that Livingston and Stephens or their agents be (1) ordered to
stop taking money from Mr. Hawes’ account until it is established that he has another source
of income; (2) that TDCJ be ordered to create a policy and plan to identify prisoners who
receive VA benefits and exempt those funds from levy or garnishment; and (3) that third-party
oversight of prisoner grievances by an independent review committee be established. Mr.
Hawes requested declaratory relief, restoration of his $100.00, and compensatory damages of
$2,000.00.
Report and Recommendation
After a review of the pleadings, each parties’ summary judgment motions and
responses, and the competent summary judgment evidence, Judge Love concluded that the

52a

Case 6:16-cv-00442-RC-JDL Document 98 Filed 03/19/19 Page 4 of 10 PageID #: 833

funds from Mr. Hawes’ Altra Federal Credit Union Account that were deposited into his ITFA
were not protected by 38 U.S.C. § 5301. After applying the look-back method of 31 C.F.R. §
212 to Mr. Hawes’ ITFA, Judge Love found that not all monies in Mr. Hawes’ ITFA were
protected funds at the time of the collection of the $100.00 co-payment by TDCJ. Judge Love
also found that TDCJ had a procedure in place to identify VA benefits deposited into Inmate
Trust Fund Accounts so that certain funds were protected.
Judge Love concluded that Mr. Hawes’ due process rights were not violated as TDCJ
had given him proper notice of the annual, medical co-payment. See Morris v. Livingston, 739
F.3d 740 749-50 (5th Cir.), cert denied, 134 S. Ct. 2734 (2014). The Magistrate Judge also
determined that $177.81 in Mr. Hawes’ ITFA was not shielded by 38 U.S.C. § 5301at the time
the $100.00 annual medical co-payment was collected; thus, no due process violation occurred.
Judge Love concluded that 31 C.F.R. § 212 does not create a private cause of action, and thus,
an institution cannot be sued for an alleged due process violation for failing to strictly comply
with the notice requirements of the Regulation. Judge Love also determined that TDCJ was
not a “financial institution” as defined by 31 C.F.R. § 212.
Moreover, Judge Love also found that Mr. Hawes’ failed to establish the necessary
elements of his due process, conspiracy, theft, mail and wire fraud, denial of grievances, and
inadequate grievance system claims. Judge Love determined that the Defendants were entitled
to qualified immunity in their individual capacities. Judge Love concluded that Defendants’
motions for summary judgment should be granted and that Mr. Hawes’ cross-motions for
summary judgment should be denied. Judge Love ultimately recommended that Mr. Hawes’
complaint should be dismissed. Mr. Hawes has filed objections.

53a

Case 6:16-cv-00442-RC-JDL Document 98 Filed 03/19/19 Page 5 of 10 PageID #: 834

Objections
Mr. Hawes first complains that the Magistrate Judge erred in relying on Purvis v.
Crosby, 2006 WL 1836034 (N.D. Fla. June 30, 2006), asserting that Purvis conflicts with the
plain language of 38 U.S.C. § 5301(a). Upon reviewing the Report, there is no indication that
the Magistrate Judge actually relied on Purvis in reaching his conclusions. There are two
instances in which the Magistrate Judge sets out the Defendants’ argument pertaining to Purvis
in the Report but there is no conclusion or recommendation set out by the Magistrate Judge
attributable to Purvis. This objection is not sustained.
Mr. Hawes challenges the findings that: (1) monies deposited from an outside account
into his ITFA are not exempted from garnishment; and (2) that monies from VA benefits
direct-deposited into his ITFA lose their exempt status after an approximate 60-day time
period. The Magistrate Judge clearly stated that he relied on Title 31 C.F.R. Part 212 in
reaching his conclusions and recommendations regarding these issues. Mr. Hawes is correct
that the language contained in 38 U.S.C. § 5301(a) is not necessarily reflected in 31 C.F.R. §
212; however, the federal regulation provides instruction as to how money will be garnished
from an account containing monies protected by 38 U.S.C. § 5301(a), such as, VA benefits.
In his Objections, Mr. Hawes is now challenging the application of 31 C.F.R. § 212 to
the facts of his case by claiming that the federal regulation’s language or procedures are
inapposite to the language or intent of 38 U.S.C. § 5301(a). That objection is foreclosed. Issues
raised for the first time in objections to the Report of the Magistrate Judge are not properly
before the District Court. United States v. Armstrong, 951 F.2d 626, 630 (5th Cir. 1992); Cupit
v. Whitely, 28 F.3d 532, 535 n.5 (5th Cir. 1994). The Magistrate Judge issued an Order (Dkt.

54a

Case 6:16-cv-00442-RC-JDL Document 98 Filed 03/19/19 Page 6 of 10 PageID #: 835

#69) on August 8, 2018, placing the parties on notice of the Magistrate Judge’s intention to
apply 31 C.F.R § 212 to this case and instructing the parties to re-brief their factual and legal
arguments in light of the federal regulations. If Mr. Hawes had an objection to the application
of 31 C.F.R. § 212 to the facts or legal arguments pertaining to his case, that objection should
have been raised in his response to the Order. In his Second Motion for Summary Judgment
(Dkt. #74)—his putative response to the Order—Mr. Hawes raises a due process argument
under 31 C.F.R. § 212 but neither challenges the Magistrate Judge’s intention to apply the
federal regulation, nor raises any argument claiming that the federal regulation is inapposite to
the statute. This objection is overruled.
For purposes of his 31 C.F.R. § 212 due process argument, Mr. Hawes objects that the
Magistrate Judge found that TDCJ is not a financial institution. Mr. Hawes contends that the
Magistrate Judge cannot apply the federal regulation to his case in the absence of finding that
TDCJ is a financial institution. These two issues are not synonymous. The purpose of 31
C.F.R. § 212 is to provide guidelines for when a garnishment order is received for an account
into which federal benefit payments have been directly deposited. (Dkt. #69, p. 15). Since Mr.
Hawes’ VA benefits were directly deposited into his ITFA, 31 C.F.R. § 212 is applicable to
determine which monies are protected and not subject to garnishment, levy or other legal
process.
Moreover, 31 C.F.R. § 212 defines “financial institution” as “a bank, savings
association, credit union, or other entity charged under Federal or State law to engage in the
business of banking.” (Dkt. #69, p.16). Mr. Hawes failed to present any summary judgment
evidence that TDCJ is or was engaged in the “business of banking.” Mr. Hawes does cite to

55a

Case 6:16-cv-00442-RC-JDL Document 98 Filed 03/19/19 Page 7 of 10 PageID #: 836

Texas Government Code § 493.0087(a) regarding where TDCJ may hold funds and the types
of funds that TDCJ may hold on behalf of an inmate. (Dkt. #97, p. 8). The state statute does
not acknowledge or give authority to TDCJ to “engage in the business of banking.” Mr. Hawes’
objection is overruled.
Mr. Hawes challenges the conclusion that the only funds directly deposited by the U.S.
Treasury on behalf of a benefit agency are protected. Mr. Hawes raises the objection several
times; more specifically, his objections concern the funds deposited from his Altra Federal
Credit Union account. In the Guidelines to 31 C.F.R. § 212, a benefit payment is defined as “a
federal benefit payment paid by direct deposit to an account.” (Dkt. #69, p. 16). Title 31 C.F.R.
§ 212.5(c) specifically uses the language “a benefit agency deposit[ing] a benefit payment into
the account.” (Dkt. #69, p. 6). The Guidelines to 31 C.F.R. § 212 also states that “these
guidelines apply only to Federal benefits paid electronically via the ACH [Automated Clearing
House]. Financial institutions are not responsible for examining accounts to identify Federal
benefits paid by Treasury check.” (Dkt. #69, p. 16). The plain meaning of the language of the
Regulation and the Guidelines reflect that a payment made by an entity other than the benefit
agency does not qualify for protection and if the funds are not direct-deposited by the benefit
agency, the funds are not protected. This objection is overruled.
Mr. Hawes advocates that all funds deposited into his ITFA should be protected;
including the funds transferred by Mr. Hawes from his outside Altra Federal Credit Union
(FCU) account, by check, to his ITFA. In his motions for summary judgment, Mr. Hawes
asserted that all funds in his Altra FCU account were solely from VA benefit deposits; and
thus, protected from garnishment. Mr. Hawes did attach an affidavit, Exhibit F to his Second

56a

Case 6:16-cv-00442-RC-JDL Document 98 Filed 03/19/19 Page 8 of 10 PageID #: 837

Motion for Summary Judgment (Dkt. #74-1, pp. 67-68), and a copy of an unsigned letter, dated
August 23, 2016, addressed to “Whom it may concern,” with a stamped name and address of
Altra Federal Credit Union and a notary stamp at the bottom—as Exhibit F to his Partial
Motion for Summary Judgment (Dkt. #48-6) and as Exhibit B to his Second Motion for
Summary Judgment. (Dkt. #74-1, p. 7). The affidavit and the unsigned letter purport to address
the nature of his deposits from his Altra FCU account to his ITFA. While there are some
evidentiary issues with his summary judgment evidence on this point, the true issue is whether
the deposits from the Altra FCU are protected from garnishment in the ITFA once the
regulations of 31 C.F.R. § 212 are applied. The answer is no. The plain language of 31 C.F.R.
§ 212 is clear that only funds which are direct deposited by the benefit agency into the subject
account are protected. Mr. Hawes’ objection is overruled.
Mr. Hawes also challenges the Magistrate Judge’s application of the look-back method
to his ITFA. Mr. Hawes complains that the Magistrate Judge did not consider his commissary
purchase of $78.65 that was entered on December 11, 2015, when applying the look-back
method. The Magistrate Judge explained: “Using the look-back method as described in the
Guidelines to 31 C.F.R. § 212, and treating the December 11, 2015, $100.00 medical copayment fee as the date of the triggering garnishment order, the preceding date to December
11, 2015 is December 10, 2015.” (Dkt. #91, p. 25). As the commissary purchase was dated
December 11, 2015, the Magistrate Judge did not err in stating that on December 10, 2015,
Mr. Hawes had an account balance of $444.12 (Dkt. #88-1, p. 5). The court does not find that
the Magistrate Judge incorrectly applied the look-back method as described in the Guidelines
to 31 C.F.R. § 212. Mr. Hawes’ objection is overruled.

57a

Case 6:16-cv-00442-RC-JDL Document 98 Filed 03/19/19 Page 9 of 10 PageID #: 838

Mr. Hawes raises for the first time Administrative Directive 06.08—purportedly a
TDCJ policy regarding the collection of funds from inmate trust fund accounts. He complains
that the Magistrate Judge did not take this policy into consideration when applying the lookback method of 31 C.F.R. § 212 and reaching a conclusion as to what funds where available
after the exempted amount was determined. First, the Magistrate Judge was not required to
examine how a state policy applied in this circumstance as the discussion concerns the
application of a federal regulation to federal statutory law. Secondly, this objection is
foreclosed. As mentioned, issues raised for the first time in objections to the Report of the
Magistrate Judge are not properly before the district court. Armstrong, 951 F.2d at 630; Cupit,
28 F.3d at 535 n.5. This objection is without merit.
Mr. Hawes complains that he disagrees with the Magistrate Judge’s analysis regarding
his due process claims. Mr. Hawes cites a death penalty habeas corpus case, Rivera v.
Quarterman, 505 F.3d 349 (2007), regarding how much meaningful due process he should
have received pertaining to the deprivation of his monies. He further complains that the inmate
grievance system does not provide adequate due process.
Not every situation calls for a predeprivation hearing. “[D]ue process is flexible and
calls for such procedural protections as the particular situation demands.” Morrissey v. Brewer,
408 U.S. 471, 481 (1972). A state actor’s unauthorized deprivation of an inmate’s prison
account funds—be it negligent or intentional—“does not constitute a violation of the
procedural requirements of the Due Process Clause of the Fourteenth Amendment if a
meaningful post-deprivation remedy for the loss is available.” Washington v. Collier, 747 F.
App’x 221, 222 (5th Cir. 2018) (citing Hudson v. Palmer, 468 U.S. 517, 533 (1984)). Because

58a

Case 6:16-cv-00442-RC-JDL Document 98 Filed 03/19/19 Page 10 of 10 PageID #: 839

Mr. Hawes was afforded an adequate post-deprivation remedy for the collection of the $100.00
medical co-payment from his inmate trust account, no actionable violation of his due process
rights has occurred. Although Mr. Hawes is dissatisfied with the response he received from his
grievances, his due process rights were still not violated. This objection is overruled.
Conclusion
The Report of the Magistrate Judge, which contains his proposed findings of fact and
recommendations for the disposition of such action, has been presented for consideration, and
having made a de novo review of the objections raised by Mr. Hawes to the Report, the court
is of the opinion that the findings and conclusions of the Magistrate Judge are correct, and Mr.
Hawes’ objections are without merit. Therefore, the court adopts the findings and conclusions
of the Magistrate Judge as the findings and conclusions of the court. It is accordingly
ORDERED that the complaint is DISMISSED. It is finally
ORDERED that all motions not previously ruled on are DENIED.
So ORDERED and SIGNED March 19, 2019.

____________________________
Ron Clark, Senior District Judge

59a

Case 6:16-cv-01313-RC-KNM Document 9 Filed 03/19/19 Page 1 of 1 PageID #: 43

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION

ROGER HAWES, #712549

§

VS.

§

WILLIAM STEPHENS, ET AL.

§

CIVIL ACTION NO. 6:16cv442
(Consolidated with 6:16cv1313)

FINAL JUDGMENT
The court having considered Plaintiff’s case and rendered its decision by opinion issued
this same date, it is hereby ORDERED that Plaintiff take nothing by his lawsuit and the case is
DISMISSED with prejudice.
So ORDERED and SIGNED March 19, 2019.

____________________________
Ron Clark, Senior District Judge

60a

